<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                         TUESDAY, MAY 12, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Cochran, and Bond.

                         DEPARTMENT OF DEFENSE

                         DEPARTMENT OF THE ARMY

                        Office of the Secretary

STATEMENTS OF:
        HON. PETE GEREN, SECRETARY OF THE ARMY
        GENERAL GEORGE W. CASEY, JR., CHIEF OF STAFF

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning we welcome the Honorable Pete 
Geren, Secretary of the Army, and General George Casey, the 
Army's Chief of Staff.
    Gentlemen, thank you for being with us today as the 
subcommittee reviews the Army's budget request for fiscal year 
2010.
    The Army's fiscal year budget request is $142 billion, an 
increase of almost $2 billion over last year's inactive budget 
excluding the funding appropriated to the Army in the fiscal 
year 2009 supplemental. The Army has also requested $83.1 
billion for overseas contingencies for fiscal year 2010.
    As we review the request, we are mindful of the fact that 
in this era of persistent conflict, the Army and its soldiers 
remain a constant in any strategy to ensure our national 
security. The Army remains highly engaged in overseas 
contingency operations, while continuing to transform itself.
    But fighting in today's security environment while 
continuing to rebuild and reset has stretched the service and 
the Army has to balance decisions among the strains of meeting 
the high demand of the forces maintaining a debt of forces 
needed to be prepared for other contingencies and managing the 
limited time between deployments.
    At the end of the fiscal year, the active duty Army and the 
Reserve components will have reached its final end strength 
goals, and I wish to congratulate achieving this goal several 
years ahead of schedule, and I hope that these additional 
soldiers will help relieve the current strain on the force.
    There's no question that the continuous hard pace of 
operations has taken a toll on both Army personnel and 
equipment, yet as we address current urgent needs, we cannot 
lose sight of the future.
    The Secretary recently made it clear that the Department of 
Defense is not going to move forward into the future with a 
business-as-usual approach, and last month, Secretary Gates 
held a press conference announcing sweeping cuts and other 
major changes to the budget, including changing the ways the 
Pentagon buys weapons.
    This decision was fueled by outrage over programs that 
exceed cost estimates, and often do not meet operational needs.
    Secretary Gates also acknowledged that major structural 
changes are needed to place the Defense Department on a 
fiscally sustainable path, especially regarding personal 
accounts.
    Facing this new fiscal environment, I think the Army must 
rethink its modernization approach to reflect an increased 
focus on cost, as well as a need to integrate lessons learned 
from ongoing operations. Procurement dollars, as you can 
imagine, will be tighter as the Army faces higher personnel 
costs.
    The subcommittee expects that many of the hard decisions 
facing the Army will be reflected, both in the upcoming 
Quadrennial Defense Review (QDR), and overall modernization 
planning, and it is our hope that this morning's hearing will 
help answer some of these questions, and eliminate how the 
Army's fiscal year 2010 request addresses these challenges in a 
responsible manner.
    Gentlemen, we sincerely appreciate your service to our 
Nation, and the dedication and sacrifice made daily by men and 
women in our Army. We could not be more grateful for what those 
who wear our Nation's uniform do for our country, each and 
every day.
    And, as always, your full statements will be made part of 
the record, and I wish to turn to my vice chairman, Senator 
Cochran, at this time for his opening statement.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you for your 
leadership of this subcommittee, and in the Senate, generally. 
And we welcome our witnesses today to review the request for 
funding for the Department of the Army.
    I first want to commend you for your leadership and your 
success in managing the resources of the United States Army, 
our men and women in uniform, and their families, who are 
performing services that are very important for the safety and 
security of our country and for stability in the world, and for 
that, we're very grateful.
    We want to thank you, too, for the definition of your 
priorities, in terms of funding for programs and activities, 
procurement, resetting the force, all of the things that are 
under your responsibility, and we appreciate your giving us a 
statement and an outline of your thoughts on these subjects. It 
will be very helpful to us as we proceed to consider the budget 
request.
    We welcome you to the subcommittee and look forward to your 
comments.
    Chairman Inouye. I recognize Secretary Geren.
    Secretary Geren. Thank you, Mr. Chairman, Mr. Vice 
Chairman.
    It's an honor for General Casey and me to appear before you 
to discuss our United States Army. An Army that's built on a 
partnership between soldiers and the Congress, it's a 
partnership that pre-dates the independence of our Nation.
    We have provided the subcommittee the full posture 
statement, I ask that it be included in the record.
    Chairman Inouye. Without objection.
    [The statement follows:]

 Prepared Statement of the Honorable Pete Geren and General George W. 
                               Casey, Jr.
2009 army posture statement--america's army: the strength of the nation
                                               May 5, 2009.

    Our Nation is in its eighth year of war, a war in which our Army--
Active, Guard, and Reserve--is fully engaged. The Army has grown to 
more than 1 million Soldiers, with 710,000 currently serving on active 
duty and more than 255,000 deployed to nearly 80 countries worldwide. 
Our Soldiers and Army Civilians have performed magnificently, not only 
in Afghanistan and Iraq, but also in defense of the homeland and in 
support to civil authorities in responding to domestic emergencies.
    Much of this success is due to our Noncommissioned Officers. This 
year, we specifically recognize their professionalism and commitment. 
To honor their sacrifices, celebrate their contributions, and enhance 
their professional development, we have designated 2009 as the ``Year 
of the Army NCO.'' Our NCO Corps is the glue holding our Army together 
in these challenging times.
    Today, we are fighting a global war against violent extremist 
movements that threaten our freedom. Violent extremist groups such as 
Al Qaeda, as well as Iran-backed factions, consider themselves at war 
with western democracies and even certain Muslim states. Looking ahead, 
we see an era of persistent conflict--protracted confrontation among 
state, non-state, and individual actors that are increasingly willing 
to use violence to achieve their political and ideological ends. In 
this era, the Army will continue to have a central role in providing 
full spectrum forces necessary to ensure our security.
    The Army remains the best led, best trained, and best equipped Army 
in the world, but it also remains out of balance. The demand for our 
forces over the last several years has exceeded the sustainable supply. 
It has stretched our Soldiers and their Families and has limited our 
flexibility in meeting other contingencies. In 2007, our Army initiated 
a plan based on four imperatives: Sustain our Soldiers and Families; 
Prepare our forces for success in the current conflicts; Reset 
returning units to rebuild readiness; and Transform to meet the demands 
of the 21st Century. We have made progress in all of these and are on 
track to meet the two critical challenges we face: restoring balance 
and setting conditions for the future.
    Our Army is the Strength of this Nation, and this strength comes 
from our values, our ethos, and our people--our Soldiers and the 
Families and Army Civilians who support them. We remain dedicated to 
improving their quality of life. We are committed to providing the best 
care and support to our wounded, ill, and injured Soldiers--along with 
their Families. And our commitment extends to the Families who have 
lost a Soldier in service to our Nation. We will never forget our moral 
obligation to them.
    We would not be able to take these steps were it not for the 
support and resources we have received from the President, Secretary of 
Defense, Congress, and the American people. We are grateful. With 
challenging years ahead, the Soldiers, Families, and Civilians of the 
United States Army require the full level of support requested in this 
year's base budget and Overseas Contingency Operations funding request. 
Together, we will fight and win the wars in Afghanistan and Iraq, 
restore balance, and transform to meet the evolving challenges of the 
21st Century. Thank you for your support.
                                       George W. Casey, Jr.
                        General, United States Army Chief of Staff.
                                                Pete Geren,
                                             Secretary of the Army.

    ----------------------------------------------------------------

    ``As we consider the road that unfolds before us, we remember with 
humble gratitude those brave Americans who, at this very hour, patrol 
far-off deserts and distant mountains. They have something to tell us, 
just as the fallen heroes who lie in Arlington whisper through the 
ages. We honor them not only because they are guardians of our liberty, 
but because they embody the spirit of service; a willingness to find 
meaning in something greater than themselves. And yet, at this moment--
a moment that will define a generation--it is precisely this spirit 
that must inhabit us all.''----President Barack Obama Inaugural 
Address, January 2009.

    ----------------------------------------------------------------

                              INTRODUCTION

    Our combat-seasoned Army, although stressed by 7 years of war, is a 
resilient and professional force--the best in the world. The Army--
Active, National Guard, and Army Reserve--continues to protect our 
Nation, defend our national interests and allies, and provide support 
to civil authorities in response to domestic emergencies.
    The Army is in the midst of a long war, the third longest in our 
Nation's history and the longest ever fought by our All-Volunteer 
Force. More than 1 million of our country's men and women have deployed 
to combat; more than 4,500 have sacrificed their lives, and more than 
31,000 have been wounded. Our Army continues to be the leader in this 
war, protecting our national interests while helping others to secure 
their freedom. After 7 years of continuous combat, our Army remains out 
of balance, straining our ability to sustain the All-Volunteer Force 
and maintain strategic depth. The stress on our force will not ease in 
2009 as the demand on our forces will remain high. In 2008, the Army 
made significant progress to restore balance, but we still have several 
challenging years ahead to achieve this vital goal.
    As we remain committed to our Nation's security and the challenge 
of restoring balance, we remember that the Army's most precious 
resources are our dedicated Soldiers, their Families, and the Army 
Civilians who support them. They are the strength of the Army--an Army 
that is the Strength of the Nation.

                           STRATEGIC CONTEXT

An Era of Persistent Conflict
    The global security environment is more ambiguous and unpredictable 
than in the past. Many national security and intelligence experts share 
the Army's assessment that the next several decades will be 
characterized by persistent conflict--protracted confrontation among 
state, non-state, and individual actors that are increasingly willing 
to use violence to achieve their political and ideological ends. We 
live in a world where global terrorism and extremist ideologies, 
including extremist movements such as Al Qaeda, threaten our personal 
freedom and our national interests. We face adept and ruthless 
adversaries who exploit technological, informational, and cultural 
differences to call the disaffected to their cause. Future operations 
in this dynamic environment will likely span the spectrum of conflict 
from peacekeeping operations to counterinsurgency to major combat.
Global Trends
    Several global trends are evident in this evolving security 
environment. Globalization has increased interdependence and prosperity 
in many parts of the world. It also has led to greater disparities in 
wealth which set conditions that can foster conflict. The current 
global recession will further increase the likelihood of social, 
political, and economic tensions.
    Technology, which has enabled globalization and benefited people 
all over the world, also is exploited by extremists to manipulate 
perceptions, export terror, and recruit people who feel disenfranchised 
or threatened.
    Population growth increases the likelihood of instability with the 
vast majority of growth occurring in urban areas of the poorest regions 
in the world. The limited resources in these areas make young, 
unemployed males especially vulnerable to antigovernment and radical 
ideologies. The inability of governments to meet the challenges of 
rapid population growth fuels local and regional conflicts with 
potential global ramifications.
    Increasing demand for resources, such as energy, water, and food, 
especially in developing economies, will increase competition and the 
likelihood of conflict. Climate change and natural disasters further 
strain already limited resources, increasing the potential for 
humanitarian crises and population migrations.
    The proliferation of weapons of mass destruction (WMD) remains a 
vital concern. Growing access to technology increases the potential for 
highly disruptive or even catastrophic events involving nuclear, 
radiological, chemical, and biological weapons or materials. Many 
terrorist groups are actively seeking WMD. Failed or failing states, 
lacking the capacity or will to maintain territorial control, can 
provide safe havens for terrorist groups to plan and export operations, 
which could include the use of WMD.
    These global trends, fueled by local, regional, and religious 
tensions, create a volatile security environment with increased 
potential for conflict. As these global trends contribute to an era of 
persistent conflict, the character of conflict in the 21st Century is 
changing.
The Evolving Character of Conflict
    Although the fundamental nature of conflict is timeless, its ever-
evolving character reflects the unique conditions of each era. Current 
global trends include a diverse range of complex operational challenges 
that alter the manner and timing of conflict emergence, change the 
attributes and processes of conflict, require new techniques of 
conflict resolution, and demand much greater integration of all 
elements of national power. The following specific characteristics of 
conflict in the 21st Century are especially important.
    Diverse actors, especially non-state actors, frequently operate 
covertly or as proxies for states. They are not bound by 
internationally recognized norms of behavior, and they are resistant to 
traditional means of deterrence.
    Hybrid threats are dynamic combinations of conventional, irregular, 
terrorist, and criminal capabilities. They make pursuit of singular 
approaches ineffective, necessitating innovative solutions that 
integrate new combinations of all elements of national power.
    Conflicts are increasingly waged among the people instead of around 
the people. Foes seeking to mitigate our conventional advantages 
operate among the people to avoid detection, deter counterstrikes, and 
secure popular support or acquiescence. To secure lasting stability, 
the allegiance of indigenous populations becomes the very object of the 
conflict.
    Conflicts are becoming more unpredictable. They arise suddenly, 
expand rapidly, and continue for uncertain durations in unanticipated, 
austere locations. They are expanding to areas historically outside the 
realm of conflict such as cyberspace and space. Our nation must be able 
to rapidly adapt its capabilities in order to respond to the 
increasingly unpredictable nature of conflict.
    Indigenous governments and forces frequently lack the capability to 
resolve or prevent conflicts. Therefore, our Army must be able to work 
with these governments, to create favorable conditions for security and 
assist them in building their own military and civil capacity.
    Interagency partnerships are essential to avoid and resolve 
conflicts that result from deeply rooted social, economic, and cultural 
conditions. Military forces alone cannot establish the conditions for 
lasting stability.
    Images of conflicts spread rapidly across communication, social, 
and cyber networks by way of 24-hour global media and increased access 
to information through satellite and fiber-optic communications add to 
the complexity of conflict. Worldwide media coverage highlights the 
social, economic, and political consequences of local conflicts and 
increases potential for spillover, creating regional and global 
destabilizing effects.
    Despite its evolving character, conflict continues to be primarily 
conducted on land; therefore, landpower--the ability to achieve 
decisive results on land--remains central to any national security 
strategy. Landpower secures the outcome of conflict through an 
integrated application of civil and military capabilities, even when 
landpower is not the decisive instrument. The Army, capable of full 
spectrum operations as part of the Joint Force, continues to transform 
itself to provide the prompt, sustainable, and dominant effects 
necessary to ensure our Nation's security in the 21st Century.

                           GLOBAL COMMITMENTS

    In this era of persistent conflict, the Army remains essential to 
our Nation's security as a campaign capable, expeditionary force able 
to operate effectively with Joint, interagency, and multinational 
partners across the full spectrum of conflict. Today, the Army has 
243,000 Soldiers deployed in nearly 80 countries around the world, with 
140,000 Soldiers in active combat theaters. To fulfill the requirements 
of today's missions, including defending the homeland and supporting 
civil authorities, the Army has over 710,000 Soldiers on active duty 
from all components. Additionally, 258,000 Army Civilians are 
performing critical missions in support of the Army. More than 4,100 of 
our Civilians and more than 33,000 U.S. contractors are forward-
deployed, performing vital missions abroad.
    The Army's primary focus continues to be combined counter-
insurgency operations in Iraq and Afghanistan, while training each 
nation's indigenous forces and building their ability to establish 
peace and maintain stability. Our Army is also preparing ready and 
capable forces for other national security requirements, though at a 
reduced rate. These forces support combatant commanders in a wide 
variety of military missions across the entire spectrum of conflict. 
Examples of Army capabilities and recent or ongoing missions other than 
combat include:
    Responding to domestic incidents by organizing, training, and 
exercising brigade-sized Chemical, Biological, Radiological, Nuclear, 
and high yield Explosive Consequence Management Reaction Forces--the 
first in 2008, the second in 2009, and the third in 2010.
    Supporting the defense of South Korea, Japan, and many other 
friends, allies, and partners.
    Conducting peacekeeping operations in the Sinai Peninsula and the 
Balkans.
    Supporting the establishment of Africa Command, headquartered in 
Germany, and its Army component, U.S. Army Africa, headquartered in and 
Italy.
    Providing military observers and staff officers to U.N. 
peacekeeping missions in Haiti, Iraq, Liberia, the Republic of Georgia, 
Israel, Egypt, Afghanistan, and Chad.
    Conducting multinational exercises that reflect our longstanding 
commitments to our allies and alliances.
    Supporting interagency and multinational partnerships with 
technical expertise, providing critical support after natural 
disasters.
    Continuing engagements with foreign militaries to build 
partnerships and preserve coalitions by training and advising their 
military forces.
    Supporting civil authorities in responding to domestic emergencies.
    Participating, most notably by the Army National Guard, in securing 
our borders and conducting operations to counter the flow of illegal 
drugs.
    Supporting operations to protect against WMD and prevent their 
proliferation.
    Protecting and eliminating chemical munitions.
    Current combat operations, combined with other significant demands 
placed on our forces, have stressed our Army, our Soldiers, and their 
Families. While we remain committed to providing properly manned, 
trained, and equipped forces to meet the diverse needs of our combatant 
commanders, we face two critical challenges.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                        TWO CRITICAL CHALLENGES

    While fully supporting the demands of our Nation at war, our Army 
faces two major challenges--restoring balance to a force experiencing 
the cumulative effects of 7 years of war and setting conditions for the 
future to fulfill our strategic role as an integral part of the Joint 
Force.
    The Army is out of balance. The current demand for our forces in 
Iraq and Afghanistan exceeds the sustainable supply and limits our 
ability to provide ready forces for other contingencies. Even as the 
demand for our forces in Iraq decreases, the mission in Afghanistan and 
other requirements will continue to place a high demand on our Army for 
years to come. Current operational requirements for forces and 
insufficient time between deployments require a focus on 
counterinsurgency training and equipping to the detriment of 
preparedness for the full range of military missions. Soldiers, 
Families, support systems, and equipment are stressed due to lengthy 
and repeated deployments. Overall, we are consuming readiness as fast 
as we can build it. These conditions must change. Institutional and 
operational risks are accumulating over time and must be reduced in the 
coming years.
    While restoring balance, we must simultaneously set conditions for 
the future. Our Army's future readiness will require that we continue 
to modernize, adapt our institutions, and transform Soldier and leader 
development in order to sustain an expeditionary and campaign capable 
force for the rest of this Century.
    Modernization efforts are essential to ensure technological 
superiority over a diverse array of potential adversaries. Our Army 
must adapt its institutions to more effectively and efficiently provide 
trained and ready forces for combatant commanders. We will continue to 
transform how we train Soldiers and how we develop agile and adaptive 
leaders who can overcome the challenges of full spectrum operations in 
complex and dynamic operating environments. We also must continue the 
transformation of our Reserve Components to an operational force to 
achieve the strategic depth necessary to successfully sustain 
operations in an era of persistent conflict.
    Through the dedicated efforts of our Soldiers, their Families, and 
Army Civilians, combined with continued support from Congressional and 
national leadership, we are making substantial progress toward these 
goals. Our continued emphasis on the Army's four imperatives--Sustain, 
Prepare, Reset, and Transform--has focused our efforts. We recognize, 
however, that more remains to be done in order to restore balance and 
set conditions for the future.
Restoring Balance: The Army's Four Imperatives
            Sustain
    We must sustain the quality of our All-Volunteer Force. Through 
meaningful programs, the Army is committed to providing the quality of 
life deserved by those who serve our Nation. To sustain the force, we 
are focused on recruitment and retention; care of Soldiers, Families, 
and Civilians; care for our wounded Warriors; and support for the 
Families of our fallen Soldiers.
                Recruit and Retain
    Goal.--Recruit quality men and women through dynamic incentives. 
Retain quality Soldiers and Civilians in the force by providing 
improved quality of life and incentives.
    Progress.--In 2008, nearly 300,000 men and women enlisted or 
reenlisted in our All-Volunteer Army. In addition, the Army created the 
Army Preparatory School to offer incoming recruits the opportunity to 
earn a GED in order to begin initial entry training. All Army 
components are exceeding the 90 percent Tier 1 Education Credential 
(high school diploma or above) standard for new recruits. In addition, 
our captain retention incentive program contributed to a nearly 90 
percent retention rate for keeping experienced young officers in the 
Army.
                Care of Soldiers, Families, and Civilians
    Goal.--Improve the quality of life for Soldiers, Families, and 
Civilians through the implementation of the Soldier and Family Action 
Plan and the Army Family Covenant. Garner support of community groups 
and volunteers through execution of Army Community Covenants.
    Progress.--The Army hired more than 1,000 new Family Readiness 
Support Assistants to provide additional support to Families with 
deployed Soldiers. We doubled the funding to Family programs and 
services in 2008. We began construction on 72 Child Development Centers 
and 11 new Youth Centers and fostered community partnerships by signing 
80 Army Community Covenants. Our Army initiated the ``Shoulder to 
Shoulder, No Soldier Stands Alone'' program to increase suicide 
awareness and prevention.
    The Army also committed to a 5-year, $50 million study by the 
National Institute for Mental Health for practical interventions for 
mitigating suicides and enhancing Soldier resiliency. In addition, the 
Army implemented the Intervene, Act, Motivate (I A.M. Strong) Campaign 
with a goal of eliminating sexual harassment and sexual assault in the 
Army. To enhance the investigation and prosecution of criminal 
behavior, the Army's Criminal Investigation Command and Office of the 
Judge Advocate General have taken new measures to support victims, 
investigate crimes and hold offenders accountable. The Army also has 
provided better access to quality healthcare, enhanced dental readiness 
programs focused on Reserve Component Soldiers, improved Soldier and 
Family housing, increased access to child care, and increased 
educational opportunities for Soldiers, children, and spouses.
                Warrior Care and Transition
    Goal.--Provide world-class care for our wounded, ill, and injured 
Warriors through properly resourced Warrior Transition Units (WTUs), 
enabling these Soldiers to remain in our Army or transition to 
meaningful civilian employment consistent with their desires and 
abilities.
    Progress.--The Army established 36 fully operational WTUs and 9 
community-based healthcare organizations to help our wounded, ill, and 
injured Soldiers focus on their treatment, rehabilitation, and 
transition through in-patient and out-patient treatment. We initiated 
programs to better diagnose and treat Post-Traumatic Stress Disorder, 
Traumatic Brain Injury and other injuries through advanced medical 
research. We also have made investments in upgrading our clinics and 
hospitals including a $1.4 billion investment in new hospitals at Forts 
Riley, Benning, and Hood.
                Support Families of Fallen Comrades
    Goal.--Assist the Families of our fallen comrades and honor the 
service of their Soldiers.
    Progress.--The Army is developing and fielding Survivor Outreach 
Services, a multi-agency effort to care for the Families of our 
Soldiers who made the ultimate sacrifice. This program includes benefit 
specialists who serve as subject matter experts on benefits and 
entitlements, support coordinators who provide long-term advocacy, and 
financial counselors who assist in budget planning.
            Prepare
    We must prepare our force by readying Soldiers, units, and 
equipment to succeed in the current conflicts, especially in Iraq and 
Afghanistan. We continue to adapt institutional, collective, and 
individual training to enable Soldiers to succeed in combat and prevail 
against adaptive and intelligent adversaries. We are equally committed 
to ensuring Soldiers have the best available equipment to both protect 
themselves and maintain a technological advantage over our adversaries. 
To prepare our force, we continue to focus on growing the Army, 
training, equipping, and better supporting the Army Force Generation 
(ARFORGEN) process.
                Grow the Army
    Goal.--Accelerate the end strength growth of the Army so that by 
2010 the Active Component has 547,400 Soldiers and the National Guard 
has 358,200 Soldiers. Grow the Army Reserve to 206,000 Soldiers by 2012 
even as the Army Reserve works an initiative to accelerate that growth 
to 2010. Grow the Army's forces to 73 Brigade Combat Teams (BCTs) and 
approximately 227 Support Brigades with enabling combat support and 
combat service support structure by 2011. Simultaneously develop the 
additional facilities and infrastructure to station these forces.
    Progress.--With national leadership support, our Army has achieved 
our manpower growth in all components during 2009. The Army grew 32 
Modular Brigades in 2008 (7 Active Component Brigades and 25 Brigades 
in the Reserve Component). This growth in the force, combined with 
reduced operational deployments from 15 months to 12 months, eased some 
of the strain on Soldiers and Families.
                Training
    Goal.--Improve the Army's individual, operational, and 
institutional training for full spectrum operations. Develop the tools 
and technologies that enable more effective and efficient training 
through live, immersive, and adaptable venues that prepare Soldiers and 
leaders to excel in the complex and challenging operational 
environment.
    Progress.--The Army improved training facilities at home stations 
and combat training centers, increasing realism in challenging 
irregular warfare scenarios. Army Mobile Training Teams offered career 
training to Soldiers at their home station, preventing them from having 
to move away for schooling and providing more time for them with their 
Families. Our Army continues to improve cultural and foreign language 
skills.
                Equipment
    Goal.--Provide Soldiers effective, sustainable, and timely 
equipment through fully integrated research and development, 
acquisition, and logistical sustainment. Continue modernization efforts 
such as the Rapid Fielding Initiative and the Rapid Equipping Force, 
using a robust test and evaluation process to ensure the effectiveness 
of fielded equipment.
    Progress.--In 2008, the Army fielded more than 1 million items of 
equipment including over 7,000 Mine-Resistant, Ambush-Protected (MRAP) 
vehicles, providing Soldiers fighting in Iraq and Afghanistan the best 
equipment available.
                Army Force Generation (ARFORGEN) Process
    Goal.--Improve the ARFORGEN process to generate trained, ready, and 
cohesive units for combatant commanders on a rotational basis to meet 
current and future strategic demands. Achieve a degree of balance by 
reaching a ratio of 1 year deployed to 2 years at home station for 
Active Component units, and 1 year deployed to 4 years at home for 
Reserve Component units by 2011.
    Progress.--Recent refinements in the ARFORGEN process have 
increased predictability for Soldiers and their Families. When combined 
with the announced drawdown in Iraq, this will substantially increase 
the time our Soldiers have at home.
            Reset
    In order to prepare Soldiers, their Families, and units for future 
deployments and contingencies, we must reset the force to rebuild the 
readiness that has been consumed in operations. Reset restores deployed 
units to a level of personnel and equipment readiness necessary for 
future missions. The Army is using a standard reset model and is 
continuing a reset pilot program to further improve the effectiveness 
and efficiency of the ARFORGEN process. To reset our force, we are 
revitalizing Soldiers and Families; repairing, replacing, and 
recapitalizing equipment; and retraining Soldiers.
                Revitalize Soldiers and Families
    Goal.--Increase the time our Soldiers and Families have together to 
reestablish and strengthen relationships following deployments.
    Progress.--In the reset pilot program, units have no readiness 
requirements or Army-directed training during the reset period (6 
months for the Active Component and 12 months for the Reserve 
Components). This period allows units to focus on Soldier professional 
and personal education, property accountability, and equipment 
maintenance, and also provides quality time for Soldiers and their 
Families.
                Repair, Replace, and Recapitalize Equipment
    Goal.--Fully implement an Army-wide program that replaces equipment 
that has been destroyed in combat and repairs or recapitalizes 
equipment that has been rapidly worn out due to harsh conditions and 
excessive use. As units return, the Army will reset equipment during 
the same reconstitution period we dedicate to Soldier and Family 
reintegration.
    Progress.--The Army reset more than 125,000 pieces of equipment in 
2008. The maintenance activities and capacity at Army depots increased 
to their highest levels in the past 35 years.
                Retrain Soldiers, Leaders, and Units
    Goal.--Provide our Soldiers with the critical specialty training 
and professional military education necessary to accomplish the full 
spectrum of missions required in today's strategic environment.
    Progress.--The Army is executing a Training and Leader Development 
Strategy to prepare Soldiers and units for full spectrum operations. 
The Army is 60 percent complete in efforts to rebalance job skills 
required to meet the challenges of the 21st Century.
                Reset Pilot Program
    Goal.--Provide lessons learned that identify institutional 
improvements that standardize the reset process for both the Active and 
Reserve Components and determine timing, scope, and resource 
implications.
    Progress.--In 2008, the Army initiated a 6-month pilot reset 
program for 13 units (8 Active Component and 5 Reserve Components). The 
Army has learned many significant lessons and is applying them to all 
redeploying units to allow units more time to accomplish reset 
objectives at their home stations.
Transform
    We must transform our force to provide the combatant commanders 
dominant, strategically responsive forces capable of meeting diverse 
challenges across the entire spectrum of 21st Century conflict. To 
transform our force, we are adopting modular organizations, 
accelerating delivery of advanced technologies, operationalizing the 
Reserve Components, restationing our forces, and transforming leader 
development.
            Modular Reorganization
    Goal.--Reorganize the Active and Reserve Components into 
standardized modular organizations, thereby increasing the number of 
BCTs and support brigades to meet operational requirements and creating 
a more deployable, adaptable, and versatile force.
    Progress.--In addition to the 32 newly activated modular brigades, 
the Army converted 14 brigades from a legacy structure to a modular 
structure in 2008 (5 Active Component and 9 Reserve Component 
Brigades). The Army has transformed 83 percent of our units to modular 
formations--the largest organizational change since World War II.
            Advanced Technologies
    Goal.--Modernize and transform the Army to remain a globally 
responsive force and ensure our Soldiers retain their technological 
edge for the current and future fights.
    Progress.--The Army will accelerate delivery of advanced 
technologies to Infantry BCTs fighting in combat today through ``Spin-
outs'' from our Future Combat Systems program. This aggressive fielding 
schedule, coupled with a tailored test and evaluation strategy, ensures 
Soldiers receive reliable, proven equipment that will give them a 
decisive advantage over any enemy.
            Operationalize the Reserve Components
    Goal.--Complete the transformation of the Reserve Components to an 
operational force by changing the way we train, equip, resource, and 
mobilize Reserve Component units by 2012.
    Progress.--The Army continued efforts to systematically build and 
sustain readiness and to increase predictability of deployments for 
Soldiers, their Families, employers, and communities by integrating the 
ARFORGEN process.
            Restationing Forces
    Goal.--Restation forces and families around the globe based on the 
Department of Defense's (DOD) Global Defense Posture and Realignment 
initiatives, Base Realignment and Closure (BRAC) statutes, and the 
expansion of the Army directed by the President in January 2007.
    Progress.--To date, in support of BRAC, our Army has obligated 95 
percent of the $8.5 billion received. Of more than 300 major 
construction projects in the BRAC program, 9 have been completed and 
another 139 awarded. The Army has also completed 77 National 
Environmental Policy Act actions, closed 1 active installation and 15 
U.S. Army Reserve Centers, terminated 9 leases, and turned over 1,133 
excess acres from BRAC 2005 properties. The Army is on track to 
complete BRAC by 2011.
            Soldier and Leader Development
    Goal.--Develop agile and adaptive military and Civilian leaders who 
can operate effectively in Joint, interagency, intergovernmental, and 
multinational environments.
    Progress.--The Army published Field Manual (FM) 3-0, Operations, 
which includes a new operational concept for full spectrum operations 
where commanders simultaneously apply offensive, defensive, and 
stability operations to achieve decisive results. Additionally, the 
Army published FM 3-07, Stability Operations and FM 7-0, Training for 
Full Spectrum Operations and is finalizing FM 4-0, Sustainment. The 
doctrine reflected in these new manuals provides concepts and 
principles that will develop adaptive leaders to train and sustain our 
Soldiers in an era of persistent conflict.
 setting conditions for the future: six essential qualities of our army
    In an era of persistent conflict, our Army is the primary enabling 
and integrating element of landpower. The Army's transformation focuses 
on distinct qualities that land forces must possess to succeed in the 
evolving security environment. In order to face the security challenges 
ahead, the Army will continue to transform into a land force that is 
versatile, expeditionary, agile, lethal, sustainable, and 
interoperable.
    Versatile forces are multipurpose and can accomplish a broad range 
of tasks, moving easily across the spectrum of conflict as the 
situation demands. Our versatility in military operations--made 
possible by full spectrum training, adaptable equipment, and scalable 
force packages--will enable us to defeat a wide range of unpredictable 
threats.
    Our Army must remain an expeditionary force--organized, trained, 
and equipped to go anywhere in the world on short notice, against any 
adversary, to accomplish the assigned mission, including the ability to 
conduct forcible entry operations in remote, non-permissive 
environments. Working in concert with our force projection partners, 
the United States Transportation Command and sister services, we will 
enhance our expeditionary force projection and distribution capability 
to provide rapid, credible, and sustainable global response options for 
the Joint Force.
    Agile forces adapt quickly to exploit opportunities in complex 
environments. Our Army is developing agile Soldiers and institutions 
that adapt and work effectively in such environments.
    A core competency of land forces is to effectively, efficiently, 
and appropriately apply lethal force. The lethal nature of our forces 
enables our ability to deter, dissuade, and, when required, defeat our 
enemies. Because conflicts will increasingly take place among the 
people, the Army will continue to pursue technological and intelligence 
capabilities to provide lethal force with precision to minimize 
civilian casualties and collateral damage.
    Our Army must be organized, trained, and equipped to ensure it is 
capable of sustainable operations for as long as necessary to achieve 
national objectives. In addition, we will continue to improve our 
ability to guarantee the logistical capacity to conduct long-term 
operations while presenting a minimal footprint to reduce exposure of 
support forces.
    The extensive planning and organizing capabilities and experience 
of U.S. land forces are national assets. These capabilities are 
essential to preparing and assisting interagency, multinational, and 
host nation partners to execute their roles in conflict prevention and 
resolution. Our force needs to be increasingly interoperable to 
effectively support and integrate the efforts of Joint, interagency, 
intergovernmental, multinational, and indigenous elements to achieve 
national goals.
    As we look to the future, our Army is modernizing and transforming 
to build a force that exhibits these six essential qualities in order 
to meet the challenges of the security environment of the 21st Century. 
The Army's adoption of a modular, scalable brigade-based organization 
provides a broad range of capabilities that are inherently more 
versatile, adaptable, and able to conduct operations over extended 
periods.
    Another critical transformation initiative to enhance the Army's 
capabilities is the modernization of our global information network 
capabilities through integration of the Global Network Enterprise 
Construct (GNEC). The GNEC will enable network warfighting 
capabilities, dramatically improve and protect the LandWarNet, improve 
both efficiency and effectiveness of the network, and ensure Army 
interoperability across DOD.
    As part of our transformation, the Army is adapting as an 
institution principally in three areas: streamlining the Army Force 
Generation (ARFORGEN) process, implementing an enterprise approach, and 
establishing a more effective requirements process. A streamlined 
ARFORGEN process more efficiently mans, equips, and trains units to 
strengthen our expeditionary capability. The enterprise approach--a 
holistic method to improve the effectiveness and efficiency of the 
Army's policies and processes--will make our institutions more 
efficient and more responsive to the needs of the combatant commanders. 
An improved requirements process will provide more timely and flexible 
responses to meet the needs of our Soldiers. In transforming our 
training and leader development model, we produce more agile Soldiers 
and Civilians who are capable of operating in complex and volatile 
environments.
    The Army's modernization efforts are specifically designed to 
enhance these six essential land force qualities by empowering Soldiers 
with the decisive advantage across the continuum of full spectrum 
operations. Modernization is providing our Soldiers and leaders with 
leading-edge technology and capabilities to fight the wars we are in 
today while simultaneously preparing for future complex, dynamic 
threats. The Army is improving capabilities in intelligence, 
surveillance, and reconnaissance; information sharing; and Soldier 
protection to give our Soldiers an unparalleled awareness of their 
operational environment, increased precision and lethality, and 
enhanced survivability.
    The Army also is addressing the capability gaps in our current 
force by accelerating delivery of advanced technologies to Soldiers in 
Infantry BCTs. For example, more than 5,000 robots are currently in 
Iraq and Afghanistan, including an early version of the Small Unmanned 
Ground Vehicle (SUGV). Soldiers are using the SUGV prototype to clear 
caves and bunkers, search buildings, and defuse improvised explosive 
devices. In addition, an early version of the Class I Unmanned Aerial 
Vehicle (UAV) is currently supporting Soldiers in Iraq with 
reconnaissance, surveillance, and target acquisition. The Class I UAV 
operates in open, rolling, complex, and urban terrain and can take off 
and land vertically without a runway. It is part of the information 
network, providing real time information that increases Soldier agility 
and lethality while enhancing Soldier protection.
    Overall, Army modernization efforts provide a technological edge 
for our Soldiers in today's fight and are essential to the Army's 
efforts to empower Soldiers with the land force qualities needed in the 
21st Century.

                        STEWARDSHIP/INNOVATIONS

    The Nation's Army remains committed to being the best possible 
steward of the resources provided by the American people through the 
Congress. We continue to develop and implement initiatives designed to 
conserve resources and to reduce waste and inefficiencies wherever 
possible.
    The recent establishment of two organizations highlights the Army's 
commitment to improving efficiencies. In 2008, the Secretary of the 
Army established the Senior Energy Council to develop an Army 
Enterprise Energy Security Strategy. The Senior Energy Council is 
implementing a plan that reduces energy consumption and utilizes 
innovative technologies for alternative and renewable energy, including 
harvesting wind, solar and geothermal energy, while leveraging energy 
partnerships with private sector expertise. The Army is replacing 4,000 
petroleum-fueled vehicles with electric vehicles. We also are underway 
in our 6-year biomass waste-to-fuel technology demonstrations at six of 
our installations.
    As part of the Army's efforts in adapting institutions, we also 
established the Enterprise Task Force to optimize the ARFORGEN process 
for effectively and efficiently delivering trained and ready forces to 
the combatant commanders.
    In addition, in order to increase logistical efficiencies and 
readiness, the Army is developing 360 Degree Logistics Readiness--an 
initiative that proactively synchronizes logistics support capability 
and unit readiness. This new approach will allow the Army to see, 
assess, and synchronize enterprise assets in support of our operational 
forces. The 360 Degree Logistics Readiness bridges the information 
system gaps between selected legacy logistics automation systems and 
the Single Army Logistics Enterprise. It will improve visibility, 
accountability, fidelity, and timeliness of information to facilitate 
better decisions at every managerial level.
    Finally, the Army is committed to reforming our acquisition, 
procurement, and contracting processes to more efficiently and 
responsively meet the needs of our Soldiers. A streamlined requirements 
process based on reasonable requirements with adequately mature 
technology will produce a system with greater urgency and agility and 
guard against ``requirements creep.'' The Army also will continue to 
grow its acquisition workforce and provide disciplined oversight to its 
acquisition programs.

                            ACCOMPLISHMENTS

    The Army has been fully engaged over the past year. We remain 
focused on prevailing in Iraq and Afghanistan, while concurrently 
working to restore balance and transforming to set the conditions for 
success in the future. Despite the high global operational tempo and 
our continuing efforts to restore balance and prepare for future 
contingencies, we have accomplished much in the last year:
Army Accomplishments
    Manned, trained, equipped, and deployed 15 combat brigades, 34 
support brigades, and 369 military and police transition teams in 
support of Iraq and Afghanistan.
    Deployed more than 293,000 Soldiers into or out of combat in Iraq 
and Afghanistan.
    Repaired more than 100,000 pieces of Army equipment through the 
efforts at the Army's depot facilities.
    Invested in the psychological health of the Army by investing over 
$500 million in additional psychological health providers, new 
facilities, and world-class research.
    Reduced the on-duty Soldier accident rate by 46 percent in 2008 
through Soldier and leader emphasis on Army safety measures.
    Reduced the Army's ground accidents by 50 percent and the Army's 
major aviation accidents by 38 percent in 2008 through leader 
application of the Army's Composite Risk Management model.
    Implemented Family Covenants throughout the Army and committed more 
than $1.5 billion to Army Family programs and services.
    Improved on-post housing by privatizing more than 80,000 homes, 
building 17,000 homes, and renovating 13,000 homes since 2000 at 39 
different installations through the Residential Communities Initiative.
    Reduced energy consumption in Army facilities by 10.4 percent since 
2003 through the implementation of the Army's energy strategy.
    Won six Shingo Public Sector Awards for implementing best business 
practices.
    Destroyed more than 2,100 tons of chemical agents, disposed of 
70,000 tons of obsolete or unserviceable conventional ammunition, and 
removed 163,000 missiles or missile components from the Army's arsenal.
    Fostered partnerships with allies by training more than 10,000 
foreign students in stateside Army schools and by executing over $14.5 
billion in new foreign military sales to include $6.2 billion in 
support of Iraq and Afghanistan.
    Saved $41 million by in-sourcing more than 900 core governmental 
functions to Army Civilians.
    Improved Soldier quality of life by constructing or modernizing 
29,000 barracks spaces.

               AMERICA'S ARMY--THE STRENGTH OF THE NATION

    The Army's All-Volunteer Force is a national treasure. Less than 1 
percent of Americans wear the uniform of our Nation's military; they 
and their Families carry the lion's share of the burden of a Nation at 
war. Despite these burdens, our Soldiers continue to perform 
magnificently across the globe and at home, and their Families remain 
steadfast in their support. Our Civilians remain equally dedicated to 
the Army's current and long-term success. They all deserve the best the 
Nation has to offer.
    America's Army has always served the Nation by defending its 
national interests and providing support to civil authorities for 
domestic emergencies. Seven years of combat have taken a great toll on 
the Army, our Soldiers, and their Families. To meet the continuing 
challenges of an era of persistent conflict, our Army must restore 
balance and set the conditions for the future while sustaining our All-
Volunteer Force. We must ensure our Soldiers have the best training, 
equipment, and leadership we can provide them. Our Army has made 
significant progress over the last year, but has several tough years 
ahead. With the support of Congress, the Army will continue to protect 
America's national security interests while we transform ourselves to 
meet the challenges of today and the future.

                     ADDENDUM A--INFORMATION PAPERS

360 Degree Logistics Readiness
Accelerate Army Growth
Active Component Reserve Component (ACRC) Rebalance
Adaptive Logistics
Add-on Armor for Tactical Wheeled Vehicles
Africa Command (AFRICOM)
Armed Forces Recreation Centers
Army Asymmetric Warfare Office (AAWO)
Army Career and Alumni Program (ACAP)
Army Career Tracker (ACT) Program
Army Civilian University (ACU)
Army Community Service (ACS) Family Programs
Army Community Service (ACS) Family Readiness Programs
Army Energy Plan (AEP)
Army Environmental Programs
Army Evaluation Task Force (AETF)
Army Family Action Plan (AFAP)
Army Force Generation (ARFORGEN)
Army Geospatial Enterprise (AGE)
Army Integrated Logistics Architecture (AILA)
Army Leader Development Program (ALDP)
Army Modernization Strategy
Army Onesource
Army Physical Fitness Research Institute
Army Physical Readiness Training (FM 3-22.02)
Army Preparatory School
Army Prepositioned Stocks (APS)
Army Reserve Employer Relations (ARER) Program
Army Reserve Voluntary Education Services
Army Reserve Voluntary Selective Continuation
Army Spouse Employment Partnership (ASEP) Program
Army Strong
Army Suicide Prevention Program (ASPP)
Army Values
Army Volunteer Program
ARNG Active First Program
ARNG Agribusiness Development Team
ARNG Community Based Warrior Transition Units
ARNG Critical Skills Retention Bonus
ARNG Education Support Center
ARNG Environmental Programs
ARNG Every Soldier a Recruiter
ARNG Exportable Combat Training Capability
ARNG Family Assistance Centers
ARNG Freedom Salute Campaign
ARNG GED Plus Program
ARNG Muscatatuck Army Urban Training Center
ARNG Operational Support Airlift Agency
ARNG Periodic Health Assessment (PHA)
ARNG Post Deployment Health Reassessment (PDHRA)
ARNG Recruit Sustainment Program
ARNG Recruiting Assistance Program (G-RAP)
ARNG Strong Bonds
ARNG Western Army Aviation Training Site (WAATS)
Asymmetric Warfare Group
Base Realignment and Closure (BRAC) Program
Basic and Advanced NCO Courses
Basic Officer Leader Course (BOLC)
Behavioral Health
Better Opportunity for Single Soldiers (BOSS)
Biometrics
Broad Career Groups
Building Partnership Capacity Through Security Cooperation
Campaign Capable Force
Capabilities Development for Rapid Transition (CDRT)
Career Intern Fellows Program
CBRNE Consequence Management Reaction Force (CCMRF)
CENTCOM Rest and Recuperation (R&R) Leave Program
Changing the Culture
Chemical Demilitarization Program
Child and Youth Services School Support
Child Care Program
Civil Works
Civilian Corps Creed
Civilian Education System
College of the American Soldier
Combat Casualty Care
Combat Training Center (CTC) Program
Combating Weapons of Mass Destruction (WMD)
Commander's Appreciation and Campaign Design (CACD)
Common Levels of Support
Common Logistics Operating Environment (CLOE)
Community Covenant
Comprehensive Soldier Fitness Program
Concept Development and Experimentation
Condition-Based Maintenance Plus (CBM+)
Construction and Demolition Recycling Program
Continuum of Service
Contractor-Acquired Government Owned (CAGO) Equipment
Cultural and Foreign Language Capabilities
Cyber Operations
Defense Integrated Military Human Resources System (DIMHRS)
Defense Support to Civil Authorities (DSCA)
Defense Support to Civil Authorities--Defense Coordinating Officer
Defense Support to Civil Authorities--Special Events
Deployment Cycle Support
Depot Maintenance Initiatives
Digital Training Management System (DTMS)
Distributed Common Ground System--Army (DCGS-A)
Diversity
Document and Media Exploitation (DOMEX)
Enhanced Use Leasing
Enlistment Incentives
Enlistment Incentives Program Enhancements
Equal Opportunity and Prevention of Sexual Harassment (EO/POSH)
Equipment Reset
Equipping Enterprise and Reuse Conference
Equipping the Reserve Components
Exceptional Family Member Program (EFMP)
Expanding Intelligence Training
Expeditionary Basing
Expeditionary Capabilities
Expeditionary Contracting
Expeditionary Theater Opening
Family Advocacy Program (FAP)
Family Covenant
Family Housing Program
Foreign Military Sales
FORSCOM Mission Support Elements (MSE)
Freedom Team Salute
Freedrop Packaging Concept Project (FPCP)
Full Replacement Value (FRV) and Defense Property System (DPS)
Full Spectrum Operations in Army Capstone Doctrine (FM 3-0)
Funds Control Module
Future Force Integration Directorate
General Fund Enterprise Business System
Generating Force Support for Operations
Global Force Posture
Global Network Enterprise Construct (GNEC)
Helicopter, Black Hawk Utility Helicopter (UH-60)
Helicopter, Chinook Heavy Lift Helicopter (CH-47)
Helicopter, Lakota (UH-72)
Helicopter, Longbow Apache (AH-64D)
Human Terrain System (HTS)
HUMINT: Growing Army Human Intelligence (HUMINT) Capabilities
Information Doctrine
In-Sourcing
Installation Planning Board
Institutional Adaptation
Institutional Training Under Centers of Excellence (COE)
Intelligence Transformation
Interceptor Body Armor (IBA)
Interpreter/Translator Program
Irregular Warfare Capabilities
Joint Basing
Joint Knowledge Development and Distribution Capstone Program (JKDDC)
Joint Precision Airdrop System (JPADS)
Leader Development Assessment Course--Warrior Forge
Lean Six Sigma: Continuous Process Improvement Initiative
Lean Six Sigma: G-4 Initiative
Life Cycle Management Initiative
Live, Virtual, Constructive Integrated Training Environment
Manpower Personnel Integration Program (MANPRINT)
March 2 Success
Medical and Dental Readiness
Military Construction (MILCON) Program
Military Construction (MILCON) Transformation
Military Family Life Consultants (MFLC) Program
Military Intelligence Capacity
Mine-Resistant, Ambush-Protected (MRAP) Vehicles
Mobile Training Teams (MTT) for Warrior Leader Course (WLC)
Mobilization Tiger Team
Modular Force Conversion
Morale Welfare and Recreation (MWR)
Multinational Exercises
Multi-Source Assessment and Feedback (MSAF) Program
National Guard CBRNE Enhanced Response Force Package (CERFP)
National Guard Counterdrug Program
National Guard Public Affairs Rapid Response Team (PARRT)
National Guard State Partnership Program
National Guard Weapons of Mass Destruction Civil Support Teams (WMD-
CSTs)
National Guard Yellow Ribbon Program
National Guard Youth ChalleNGe
National Security Personnel System (NSPS)
Next Generation Wireless Communications (NGWC)
Officer Education System (OES)
Officer Education System--Warrant Officers
Officer Retention
Pandemic Influenza Preparation
Partnership for Youth Success Programs (PaYS)
Persistent Air and Ground Surveillance to Counter IED
Persistent Conflict
Physical Disability Evaluation System (PDES)
Post Deployment Health Reassessment (PDHRA)
Power Projection Platform
Privatization of Army Lodging
Property Accountability
Rapid Equipping Force (REF)
Rapid Fielding Initiative (RFI)
Real-Estate Disposal
Red Team Education and Training
Redeployment Process Improvements
Referral Bonus Pilot Program
Reset
Residential Communities Initiative (RCI)
Restructuring Army Aviation
Retained Issue OCIE
Retention Program
Retiree Pre-Tax Healthcare
Retirement Services
Retrograde
Risk Management
Robotics
Safety and Occupational Training
Safety Center Online Tools and Initiatives
Science and Technology
Sexual Harassment/Assault Response and Prevention (SHARP) Program
Single Army Logistics Enterprise (SALE)
Soldier and Family Action Plan (SFAP)
Soldier and Family Assistance Center Program and Warrior in Transition 
Units
Soldier as a System
Soldier's Creed
Stability Operations (FM 3-07)
Strong Bonds
Structured Self Development
Survivor Outreach Services
Sustainability
Sustainable Range Program
The Army Distributed Learning Program (TADLP)
The Human Dimension: The Concept and Capabilities Development
Training Counter-IED Operations Integration Center (TCOIC)
Training for Full Spectrum Operations (FM 7-0)
Training Support System (TSS)
Transferability of GI Bill Benefits to Family Members
Transforming the Reserve Components to an Operational Force
Traumatic Brain Injury (TBI)
Unaccompanied Personnel Housing
Unit Combined Arms Training Strategies
Unmanned Aircraft, Raven Small System
Unmanned Aircraft, Shadow System
Unmanned Aircraft, Sky Warrior System
Up-Armored High Mobility Multipurpose Wheeled Vehicle (HMMWV)
War Reserve Secondary Items
Warfighter's Forums (WfF)
Warrior Ethos
Warrior in Transition
Warrior Tasks and Battle Drills
Warrior University
Western Hemisphere Institute for Security Cooperation (WHINSEC)
Wounded Warrior Program Youth Programs

                          ADDENDUM B--WEBSITES

Headquarters, Department of the Army and other Commands
    This site has links for information regarding the Headquarters, 
Department of the Army (HQDA), Army Command Structure, Army Service 
Component Commands (ASCC), and Direct Reporting Units (DRU).
    http://www.army.mil/institution/organization/
The Army Homepage
    This site is the most visited military website in the world, 
averaging about 7 million visitors per month or approximately 250 hits 
per second. It provides news, features, imagery, and references.
    http://www.army.mil/
The Army Modernization Strategy
    http://www.g8.army.mil/G8site_redesign/modStrat.html
The Army Posture Statement
    This site provides access to archived Army Posture Statements from 
1997 to 2008.
    http://www.army.mil/aps
The Army Staff
            Personnel: G-1
    http://www.armyg1.army.mil/
            Intelligence: G-2
    http://www.dami.army.pentagon.mil/
            Operations, Plans, and Policy: G-3/5/7
    https://www.g357extranet.army.pentagon.mil
            Logistics: G-4
    http://www.hqda.army.mil/logweb/
            Programs: G-8
    This site provides information on material integration and 
management.
    http://www.army.mil/institution/organization/unitsandcommands/dcs/
g-8/
Installation Management
    This site provides information about policy formulation, strategy 
development, enterprise integration, program analysis and integration, 
requirements and resource determination, and best business practices 
for services, programs, and installation support to Soldiers, their 
Families, and Army Civilians.
    http://www.acsim.army.mil/
Army Commands (ACOMs)
    Army Forces Command (FORSCOM)
    http://www.forscom.army.mil/
    Army Training and Doctrine Command (TRADOC)
    http://www.tradoc.army.mil/
    Army Materiel Command (AMC)
    http://www.army.mil/institution/organization/unitsandcommands/
commandstructure/amc/
Reserve Components
            Army Reserve
    http://www.armyreserve.army.mil
            Army National Guard
    http://www.arng.army.mil
Other informative websites
            Army Wounded Warrior Program
    This site provides information on the Army's Wounded Warrior 
Program which provides support to severely wounded Soldiers and their 
Families.
    https://www.aw2.army.mil
            My ArmyLifeToo Web Portal
    This site serves as an entry point to the Army Integrated Family 
Network and Army OneSource.
    http://www.myarmylifetoo.com

                          ADDENDUM C--ACRONYMS

    AC--Active Component
    ACOM--Army Command
    ACP--Army Campaign Plan
    AETF--Army Evaluation Task Force
    ARFORGEN--Army Force Generation
    AFRICOM--Africa Command
    AMAP--Army Medical Action Plan
    AMC--Army Material Command
    APS--Army Prepositioned Stocks
    AR--Army Regulation
    ARCIC--Army Capabilities Integration Center
    ARNG--Army National Guard
    ASC--Army Sustainment Command
    ASCC--Army Service Component Command
    AWG--Asymmetric Warfare Group
    AWO--Asymmetric Warfare Office
    AW2--Army Wounded Warrior Program
    BCT--Brigade Combat Team
    BCTP--Battle Command Training Program
    BOLC--Basic Officer Leader Course
    BRAC--Base Realignment and Closure
    CBRN--Chemical, Biological, Radiological, and Nuclear
    CBRNE--Chemical, Biological, Radiological, Nuclear, and (High-
Yield) Explosives
    CCDR--Combatant Commander
    CCMRF--CBRNE Consequence Management Reaction Force
    CES--Civilian Education System
    C4ISR--Command, Control, Communications, Computer, Intelligence, 
Surveillance and Reconnaissance
    CMETL--Core Mission Essential Task List
    CMTC--Combat Maneuver Training Center
    COCOM--Combatant Command
    COE--Center of Excellence; Common Operating Environment; 
Contemporary Operating Environment
    COIN--Counterinsurgency
    COTS--Commercial Off-The-Shelf
    CS--Combat Support
    CSS--Combat Service Support
    CT--Counter Terrorism
    CTC--Combat Training Center
    DA--Department of the Army
    DA PAM--Department of the Army Pamphlet
    DCGS-A--Distributed Common Ground System--Army
    DMDC--Defense Manpower Data Center
    DMETL--Directed Mission Essential Task List
    DoD--Department of Defense
    DOTMLPF--Doctrine, Organization, Training, Material, Leadership and 
Education, Personnel, and Facilities
    EBCT--Evaluation Brigade Combat Team
    EOD--Explosive Ordnance Disposal
    ES2--Every Soldier a Sensor
    ETF--Enterprise Task Force
    FCS--Future Combat Systems
    FM--Field Manual
    FORSCOM FY--Forces Command Fiscal Year
    GBIAD--Global Based Integrated Air Defense
    GCSS-A--Global Combat Service Support-Army
    GDPR--Global Defense Posture Realignment
    GNEC--Global Network Enterprise Construct
    HBCT HMMWV--Heavy Brigade Combat Team High Mobility Multipurpose 
Wheeled Vehicle
    HUMINT--Human Intelligence
    IBA--Improved Body Armor
    IBCT--Infantry Brigade Combat Team
    IED--Improvised Explosive Device
    ISR--Intelligence, Surveillance, and Reconnaissance
    IT--Information Technology
    JIEDDO--Joint Improvised Explosive Device Defeat Organization
    JIIM--Joint, Interagency, Intergovernmental, and Multinational
    JRTC--Joint Readiness Training Center
    JTF--Joint Task Force
    LMP--Logistics Modernization Program
    LSS--Lean Six Sigma
    MI--Military Intelligence
    METL--Mission Essential Task List
    MOUT--Military Operations in Urban Terrain
    MRAP--Mine-Resistant, Ambush-Protected
    MRE--Mission Readiness Exercise
    MRX--Mission Rehearsal Exercise
    MTOE--Modified Table of Organization and Equipment
    MTT--Mobile Training Teams
    NBC--Nuclear, Biological, Chemical
    NEPA--National Environmental Protection Act
    NET--New Equipment Training
    NCO--Noncommissioned Officer
    NDAA--National Defense Authorization Act
    NDS--National Defense Strategy
    NLOS-C--Non Line of Sight-Cannon
    NMS--National Military Strategy
    NSPS--National Security Personnel System
    NSS--National Security Strategy
    NTC--National Training Center
    OCO--Overseas Contingency Operations
    OEF--Operation Enduring Freedom
    OIF--Operation Iraqi Freedom
    OPTEMPO--Operational Tempo
    O&M--Operations and Maintenance
    POM--Program Objective Memorandum
    PSYOP--Psychological Operations
    PTSD--Post-Traumatic Stress Disorder
    QDR--Quadrennial Defense Review
    QOL--Quality of Life
    RC--Reserve Components
    RCI--Residential Communities Initiative
    REF--Rapid Equipping Force
    RFI--Rapid Fielding Initiative
    SALE--Single Army Logistics Enterprise
    SBCT--Stryker Brigade Combat Team
    SFAP--Soldier and Family Action Plan
    SHARP--Sexual Harassment/Assault Response and Prevention (SHARP) 
Program
    SIGINT--Signal Intelligence
    SOF--Special Operations Forces
    SOS--Survivor Outreach Services
    TBI--Traumatic Brain Injury
    TDA--Table of Distribution and Allowances
    TRADOC--Training and Doctrine Command
    TTP--Tactics, Techniques, and Procedures
    UAH--Up-Armored HMMWV
    UAS--Unmanned Aircraft System
    UAV--Unmanned Aerial Vehicle
    UGV--Unmanned Ground Vehicle
    USAR--United States Army Reserve
    VBIED--Vehicle Borne Improvised Explosive Device
    WMD--Weapons of Mass Destruction
    WO--Warrant Officer
    WTBD--Warrior Tasks and Battle Drills
    WTU--Warrior Transition Units

    Secretary Geren. The President's budget for fiscal year 
2010 is now before the Congress. It includes $142 billion for 
the United States Army.
    The Army budget is mostly about people, and the operations 
and maintenance (O&M) to support those people. Our personnel 
and O&M accounts make up two-thirds of the Army budget, 
reflecting General Abrams' axiom that people are not in the 
Army, people are the Army.
    The Army is stretched by the demands of this long war, but 
it remains the best-led, best-trained, and best-equipped Army 
we have ever fielded, and this subcommittee's ongoing support 
has a lot to do with that, and we thank you for that.
    Mr. Chairman, we've designated 2009 as the year of the 
noncommissioned officer (NCO), and I've asked that three 
noncommissioned officers join us today, and with the permission 
of the chairman, I'd like to introduce them to the 
subcommittee.
    Chairman Inouye. Please do.
    Secretary Geren. We have Sergeant First Class, Chairman 
Wiles. He's a Platoon Sergeant from the 3d Infantry Old Guard. 
He deployed to Operation Iraqi Freedom/Operation Enduring 
Freedom (OIF/OEF). He's married with four children, he's from 
Louisburg, Tennessee. Appreciate his being here.
    Sergeant Aron Aus, he's a light-wheel vehicle mechanic with 
the 3d Infantry Old Guard at Fort Meyer. He's been forward 
stationed for 15 months in Korea, and he's married with one 
child.
    Sergeant Dulashti is a wounded warrior from Cincinnati, 
Ohio. He was with 82d Airborne Division, was assigned to their 
sniper platoon, graduated at the top of his class from AIT 
Infantry Sniper School, and he was deployed to Afghanistan with 
the 82d forward-deployed along the Pakistani border.
    He was wounded during the recon and sniper mission, was 
caught in an ambush, and was shot through his left knee, right 
knee, and stomach. He is a distinguished soldier, he received a 
Purple Heart, Army Commendation Medal with a V-Device. Also has 
a combat infantry badge, and a parachutist badge.
    I want to thank all three of these outstanding 
noncommissioned officers for joining us today. Thank you for 
your service.
    General Casey. I just want you to know, Mr. Chairman, that 
I feel a heck of a lot better with them sitting behind me than 
I usually do.
    Secretary Geren. As you know, at the front of every Army 
mission, here or overseas, you'll find a noncommissioned 
officer. NCOs lead the way in education, training, and 
discipline, and they share their strength of character with 
every soldier they lead, every officer they support, and every 
civilian with whom they serve.
    Our NCOs are empowered and entrusted like no other NCOs in 
the world, and the most advanced armies in the world today are 
going to school on our model.
    This year, the Year of the NCO, we're giving special 
recognition to them, and we're redoubling our commitment to 
enhance their professional development.
    Mr. Chairman, as a former NCO, this year we honor you and 
all noncommissioned officers, past and present. Thank you for 
your service, and thank you for the men and women who are our 
noncommissioned officers, who are the glue that hold us 
together during these challenging times.
    Currently, our Army has 710,000 soldiers serving on active 
duty, with 243,000 deployed in 80 countries around the world--
140,000 are deployed to Iraq and Afghanistan, and additionally 
there are 250,000 Army civilians who are providing critical 
support to our soldiers around the world.
    Our National Guard and our Reserves continue to shoulder a 
heavy burden for our Nation. Since 9/11, our Nation has 
activated over 400,000 reservists and guardsman in support of 
OIF and OEF.
    Our Reserve component soldiers also have answered the call 
at home for domestic emergencies--hurricanes, floods, forest 
fires, and support along our borders.
    Today, we truly are one Army--active, Guard, and Reserves, 
and our Guard and Reserves are transitioning from the strategic 
Reserve, to an operational force. And I would like to discuss 
some of the progress we've made in that regard.
    Go back to 2001, and we spent about $1 billion a year 
equipping the National Guard. We're now spending about $4 
billion a year, and that continues under this budget.
    As a result, we anticipate that the last Huey helicopter, 
the venerable work horse of the Vietnam era, will leave Guard 
service by the end of this fiscal year. At that time, the Guard 
will have 40 light utility helicopters, and nearly 800 
Blackhawk helicopters.
    Over 8,000 new trucks have been provided to our Guard, the 
famous Deuce and a half truck is planned to disappear in fiscal 
year 2011. This hurricane season will be the first since 2004 
in which the Guard will not have to borrow from the active 
component to meet its operational and equipment needs.
    We've also made substantial progress in implementing the 
recommendations of the Commission on National Guard and 
Reserves. Of the 19 Army-led implementation plans, 14 are 
completed. Among them, ensuring that members are provided with 
a 2-year notice of mobilization, with orders at least 1 year 
out--major change, major improvement for our soldiers, and for 
the operation of our Reserve component.
    Furthermore, although not an Army lead, we are supporting 
DOD improvements to increase transparency of RC-component 
equipment funding. Soldiers are our most valuable assets. The 
strength of our soldiers depends on the strength of Army 
families and as Admiral Mullen said recently, if we don't get 
the people part of our budget right, nothing else matters.
    This Army budget, and this DOD budget has taken care of 
people as the top priority. From fiscal year 2007-2009, with 
your support, we have more than doubled funding for Army family 
programs. In this budget that we bring to you today, we include 
$1.7 billion in the base budget for family programs.
    In fiscal year 2009, we started a new program, we hired 279 
military family-life consultants to work with our families on 
installations to work with the soldiers. Under this budget we 
will grow that to nearly 300. And we've provided full-time 
family support personnel, down to the battalion level, 
providing support and help to those volunteer spouses who carry 
so much of the load for deployments.
    We've provided expanded childcare for families of deployed 
soldiers with 16 hours, per child, per month, at no cost, along 
with free recreational and instructional classes. In this 
budget, we sustain loss and SRM at levels that will ensure we 
continue to provide our families a quality of life equal to the 
quality of their service.
    This budget continues improvement in the case of our 
wounded, ill, and injured soldiers. Your support has enabled us 
to add needed medical personnel, provide better healthcare for 
our wounded warriors and meet the needs of family members who 
are supporting their loved ones, and we've initiated programs 
to better diagnosis and treat the invisible wounds of war--
post-traumatic stress disorder (PTSD) and traumatic brain 
injury (TBI).
    With your leadership, we are investing unprecedented 
amounts in brain injury research. This fiscal year 2010 budget 
will let us advance these initiatives, address personnel 
shortages, improve facilities, expand research, and work toward 
the long-term goal of providing seamless transition from the 
Department of Defense to the Veterans Affairs for those 
soldiers who choose to return to private life.
    With 7 plus years of war in an all-volunteer force, we are 
in uncharted waters for our soldiers and their families. Our 
soldiers and families are carrying a heavy burden for our 
Nation, and we are working to reduce the stress on our force, 
and on those families.
    We are working to reverse the tragic rise in soldier 
suicides--it's a top priority throughout our Army, with the 
Vice Chief of Staff of our Army serving as the lead.
    We've partnered with the National Institute of Mental 
Health on a 5-year, $50 million groundbreaking study, to 
leverage their world-renowned expertise in suicide prevention 
in bringing that wisdom, that knowledge, and that experience 
into our Army.
    We're educating all soldiers in new, innovative ways of 
suicide risk identification and reduction, including 
intervention and prevention.
    Every NCO in this Army knows how to recognize the onset of 
heat stroke, and knows what to do about it. Our goal for 
suicide prevention is that every soldier in our Army be able to 
identify the signs of potential suicide, and know what to do 
about it.
    We also have launched new initiatives to attack the problem 
of sexual assault and harassment, with our Sexual Harassment 
Response and Prevention Program, focusing on intervention and 
prevention. As we work to prevent sexual harassment and sexual 
assault, our goal also is to become the Nation's best in the 
investigation and prosecution of this heinous crime. Sexual 
assault and sexual harassment has no place in the United States 
Army.
    We are hiring national experts, with a highly qualified 
expert authority that Congress has given us to bring their 
expertise into the United States Army, hiring top notch 
investigators, and training our prosecutors. We want to be the 
Nation's model for the prevention, investigation and 
prosecution of sexual assault crimes.
    And whether the problem is PTSD, suicidal ideation, the 
trauma of sexual assault, or dealing with any emotional or 
mental health issue, we're working hard to remove the stigma 
that has caused some soldiers to decline help.
    We also are improving our business processes, and have 
instituted major reforms for our contracting and acquisition 
processes, while continuing to provide world-class equipment 
and support to more than a quarter of a million soldiers 
scattered around the world.
    We have set up a two-start contracting command and enhanced 
training and career opportunities for contracting officers. 
Last year, we thanked Congress for authorizing five new 
contracting general officers, help us build the bench that had 
been depleted over the last 20 years.
    We're adding nearly 600 military, and over 1,000 civilians 
over the next 3 years for our contracting workforce, also 
reversing a trend that began in the early nineties of depleting 
the contracting workforce. We're turning away from contractors, 
and turning toward in-sourcing and hiring as civil service, and 
training those civil service.
    Being a good steward is more than just money. Our goal, 
also, is to lead the Department of Defense and the entire 
Federal Government in protecting the environment and saving 
energy. And I'm pleased to report that the Army has won several 
awards in recognition of our environmental efforts.
    The Army's energy security strategy reduces energy 
consumption and carbon dioxide emissions by using innovative 
technologies for alternative and renewable energy, including 
wind, solar, and geothermal.
    At Fort Carson, we've recently completed a 2 megawatt solar 
project that covers 12 acres. We have solar projects now at 28 
locations, and geothermal projects at many others. We are in 
the planning stages for a 500 megawatt solar farm at Fort Irwin 
in California, bigger than any solar project in the country 
today.
    This year we've begun--and we'll complete it over the next 
2 years--we are acquiring 4,000 electrical vehicles to use on 
installations. You can see some of those today at Fort Meyer; 
these 4,000 electric cars will cut the Army's fuel consumption 
by 11.5 million gallons, and reduce carbon dioxide emissions by 
115,000 tons per year. And our plan is to invest over $54 
billion in green buildings by 2012, leading the Department in 
the investment in this new technology. It will help us save 
over 30 percent in energy consumption on our building program.
    In theater, our investment of the filming of tents slashes 
the energy use at our FOBs and reduces the number of convoys 
taking fuel over dangerous routes to remote locations.
    And I'm pleased to report that we are on track to finish 
the base realignment and closure (BRAC) by September 2011.
    Mr. Chairman, in summary, we are a busy, stretched, and 
stressed Army, with soldiers, civilians and Army families doing 
the extraordinary as the ordinary every single day. Our 
Nation's finest young men and women are ready to respond to 
whatever our Nation's leaders demand, around the world, and 
here at home.
    In 2008, in this time of war, nearly 300,000 men and women 
are reenlisted in our United States Army. They're volunteer 
soldiers and volunteer families. They're proud of what they do, 
and they're proud of who they are.
    For the past 7\1/2\ years, we've watched soldiers go off to 
war, and watched their families stand with them, and watched 
our Congress stand alongside them every step of the way.
    Mr. Chairman, and members of the subcommittee, thank you 
for your support of our soldiers and their families, and for 
the resources and support you provide them, every year. Thank 
you very much.
    Chairman Inouye. I thank you very much, Mr. Secretary, for 
your very comprehensive report, and a very hopeful one.
    May I now recognize General Casey?

                              ARMY POSTURE

    General Casey. Thank you, Mr. Chairman, Senator Cochran, 
Senator Bond. Great to have the opportunity here today to 
update you on the 2010 budget, and really, where we are as an 
Army.
    And I'd like to give you a little progress report about 
what we've accomplished here over the last year, and then talk 
a little bit about the way ahead.
    You may recall that last year when I talked to you, I said 
the Army was out of balance. I said that we were so weighed 
down by current commitments that we couldn't do the things we 
knew we needed to do to sustain this all-volunteer force for 
the long haul, and to restore a strategic flexibility, to 
prepare to do other things.
    I can tell you that we have made progress in getting 
ourselves back in balance, but we are not out of the woods, 
yet.
    In 2007, we developed a plan based on four imperatives, the 
four most important things we said we needed to do to put this 
Army in balance--sustain our soldiers and families, continue to 
prepare our soldiers for success in the current conflict, reset 
them effectively when they return, and continue to transform 
for an uncertain future. And I'd like to give you an update 
just on the--where we are on our six major objectives, here.
    Our first objective was to finish the growth. And as you 
said in your opening statement, Mr. Chairman, we're actually 
doing a little better than that. We were originally scheduled 
to complete our growth in 2012, with the Secretary of Defense's 
support, we moved it forward to 2010, and as of this month, all 
of our components--active, Guard and Reserve--have met the end 
strength targets that they were originally to meet in 2012, and 
that's a big lift for us.
    Now, we still have to put those people in units, and match 
them with the equipment and the training, and there's about 
20,000 spaces to do that, but that's a very positive step 
forward, here.
    A positive step forward from a couple of perspectives--one, 
it allows us to begin coming off of stop-loss this year. And 
the Reserves will begin coming off in August, the Guard in 
September, and the active force in 2010, and we will--what that 
means is we will begin deploying units without stop loss on 
those dates.
    This has always been our goal, as we have built our modular 
organizations and put them on a rotational cycle, and we're on 
track to meet that goal by 2011.
    Our second key objective was to increase the amount of time 
that our soldiers spend at home between deployments. And over 
the past 2 years, I have come to realize that this is the 
single-most important element of putting our forces back in 
balance.
    And it's important from three perspectives: one, so that 
our soldiers have time to recover from these repeated combat 
deployments. Second, it gives them a more stable preparation 
time for their next mission. When they're home just for 12 
months, they have to start going to the field shortly after 
they get back, and that doesn't give them the time that they 
need to recover.
    And last, it gives them time to prepare to do other things, 
besides Iraq and Afghanistan. I will tell you that originally 
in 2007, I thought we would get not quite to 1 year out, 2 
years back, by 2011. But the President's drawdown plan in Iraq, 
if it's executed according to plan--and I have no reason to 
doubt that it will be--we will get--we will do slightly better 
than that. And that's very important for us, because we must 
increase the time our soldiers spend at home if we are going to 
get ourselves back in balance.
    The third thing, element of balance, Mr. Chairman, is we 
are moving away from our cold war formations, to formations 
that are far more relevant today. And in 2004 we began 
converting to modular organizations. We're 85 percent done. 
That's about 300 brigades who will convert--have converted or 
will convert--between now and 2011.
    We're also two-thirds of the way through re-balancing the 
force--taking soldiers who were in skills we needed more in the 
cold war, and putting them into skills more relevant today. 
That's about 150,000 people that will change jobs.
    Let me give you an example--since 2004, we have stood down 
about 200 tank companies, artillery batteries, and air defense 
batteries, and we have stood up an equivalent number of 
military police companies, engineers, special forces, and civil 
affairs companies, the skills that you hear that we need every 
day.
    So, put together, that's the largest organizational 
transformation of the Army since World War II and we have done 
it while we were deploying 150,000, or 140,000 over and back to 
Iraq and Afghanistan every year. A huge accomplishment for us.
    Fourth, we're moving to put the whole Army on a rotational 
cycle much like the Navy and the Marine Corps have been on for 
years, and we believe that is the only way that we can one, 
field trained and ready forces regularly for our combat 
commanders, but two, to give our soldiers and families a 
predictable deployment tempo, and we're well on our way to 
being able to do that.
    Fifth, as the Secretary mentioned, we're about halfway 
through our rebasing effort. With the base realignment and 
closure reposturing, modular conversions, and growth of the 
Army, we will actually restation about 380,000 soldiers, 
families, and civilians between now and the end of 2011. That's 
a huge accomplishment, but it is resulting in a great 
improvement in the quality of the facilities for our soldiers 
and families.
    And our last objective, Chairman, is to restore strategic 
flexibility--the ability for our soldiers to quickly do other 
things. And again, that's a function of the time they spend at 
home, and what I've told our soldiers is, that if you're home 
for 18 months or less, stay focused on your current mission. If 
you're home for 18 months or more, begin rekindling the skills 
that may have atrophied during your time in Iraq and 
Afghanistan. And as we progressively have more time at home, we 
will progressively rekindle those skills.
    So, to wrap up, we have made progress, but we are not out 
of the woods, yet. And the next 12 to 18 months are going to 
continue to be difficult for us, because we will actually 
increase the numbers of forces we've had deployed as we make 
the shift from Iraq to Afghanistan before the Iraq drawdown 
starts. So, we get through the next 12 to 18 months, Mr. 
Chairman, I think we'll be in fairly good shape.
    Now, let me just say just a couple of words, if I might, 
about each of the imperatives and what this budget does for 
those imperatives.
    First of all, sustaining our soldiers and families is, as 
the Secretary said, our first priority, and this is where the 
budget makes a difference. Housing, barracks, child care 
centers, youth care centers, warrior transition units, 
operational facilities, all of that is in there, and all of 
that is critical. We are continuing to work hard to deliver on 
our soldier-family action plan, and we have more than $1.7 
billion in this budget for soldiers and families--that's about 
double what it was 2 years ago.
    I can tell you, I've just finished--in the last 7 weeks--
visiting five of our installations in the United States, 
visiting soldiers in Djibouti and Afghanistan. My feedback to 
you, Chairman, is the families continue to be the most 
stretched and stressed part of the force, which is why we're 
taking--paying so close attention to improving what we're doing 
for them.
    On the prepare side, probably the most significant 
accomplishment in the last year is the fielding of about 10,000 
mine-resistant, ambush-protected (MRAPs) to our soldiers in 
theater, and they have made a huge difference. And I talked to 
some of the crews in Afghanistan, and they said, ``Well, 
sometimes it was harder to drive off-road,'' but anybody that 
had been hit by an improvised explosive device (IED) can 
survive, spoke glowingly of it, and so it's made a huge 
difference.
    Third, on reset--we are putting the whole Army on a 6-month 
reset model. This is a work in progress, but the money that is 
in the base and the OCO budget, here, about $11 million for 
reset is essential to our ability to continue to deploy our 
forces for combat in Iraq and Afghanistan.
    Last, transforming. And you mentioned an era of persistent 
conflict, Mr. Chairman, I could not agree with you more. And I 
believe that to see that--for us, for our country--to succeed 
in an era of persistent conflict, I believe that we need land 
forces that can, one, prevail in a global counterinsurgency 
campaign; two, engage to help others to build the capacity to 
deny their country to terrorists; three, to provide support to 
civil authorities both at home and abroad; and four, deter and 
defeat hybrid threats and hostile state actors around the 
world. And we are building an Army to do that.
    It's an Army that has a versatile mix of tailorable 
organizations, and that's organized on a rotational cycle, so 
we can provide a sustained flow of trained and ready forces to 
combatant commanders and against unexpected contingencies. The 
budget will help us continue on a path to building that force.
    And Mr. Chairman, Secretary Geren mentioned the Year of the 
Non-Commissioned Officer. Thank you for your service as an Army 
noncommissioned officer and I recognize these three great 
noncommissioned officers here.
    I'll close with a story about Staff Sergeant Christopher 
Wayers, who received the Distinguished Service Cross for 
actions in Baghdad in April 2007. He was riding on a Stryker 
vehicle in a patrol when a Bradley fighting vehicle in front of 
him struck an IED. The Bradley burst into flames. He realized 
that the crew was still inside, he left his Stryker, fought his 
way to the Bradley, dragged out the driver and one of the 
crewman back 100 yards to his Stryker, provided aid to them, 
when he realized there was still another soldier left in the 
vehicle.
    Again, fighting his way across 100 yards of open space back 
to the Bradley vehicle, he went inside, the ammunition was 
cooking off, and he realized that the soldier inside was dead. 
He went back to his vehicle, got a body bag, went back and 
recovered the fallen soldier out of the vehicle. That's the 
kind of men and women that you have in your Armed Forces today, 
and that's why our noncommissioned officers are the best in the 
world at what they do.
    Mr. Chairman, Senators, thank you for your attention, and 
the Secretary and I look forward to handling your questions.
    Chairman Inouye. I thank you very much, General.
    And through you, we thank all of the men and women of the 
Army, and those three men there--thank you very much. We 
appreciate your service to our Nation.

                             GROW THE ARMY

    General, in January 2007, a decision was made to build up 
to 48 active combat brigades. Recently, Secretary Gates 
announced that it will be stopped at 45. Now, will this have an 
impact on the Army? If so, what will it be?
    General Casey. Chairman, I would tell you that it will have 
a negligible impact on our ability to put ourselves back in 
balance by 2011. All of those brigades were scheduled to just 
start being built in 2011, and we actually had already had to 
slip two of their starts, one 6 months, and once a year. So, it 
will not have any kind of a significant impact on our plan to 
get ourselves back in balance.
    It will also--not building those brigades--will actually 
have a positive impact on our ability to fill the rest of the 
units that we are building and deploying, with an increased 
level of manpower. Our manpower is probably our most--our 
personnel system is probably our most--stretch system. And we 
have a good number of soldiers who are unavailable to us to put 
in units, because they're already deployed on a transition 
team, or in headquarters. They're in a warrior transition unit, 
or running a warrior transition unit, or they have some type of 
nondeployable, disabling injury. And so, this helps us--gives 
us a little edge, here, to fill those forces.
    And the last thing I'd tell you, Mr. Chairman, is that the 
Secretary of Defense has left the door open that if conditions 
don't abate as is our plan in Iraq, and he's left the door open 
for us to continue to grow those, if we still feel them 
necessary. So, I am comfortable with that decision.
    Chairman Inouye. So, you're saying, then, it won't have an 
impact on dwell time, either?
    General Casey. The number of brigades--a month or two. On 
overall drill, overall dwell. So it is not, as I said, a 
significant impact on us.
    Chairman Inouye. Thank you very much.

                                STRYKER

    Secretary, in order to maintain the industrial base of the 
Stryker, we have to purchase 200 deployed. I notice that we're 
planning to do much less than that. Is there anything we can 
do?
    Secretary Geren. We are constantly weighing our needs for 
the Strykers and Stryker replacement. As far as examining the 
industrial base issue, it's not something that, at the Army 
level, we have focused on, and what I'd like to do is get back 
with you on that, if I could.
    And I know the Office of the Secretary of Defense (OSD) has 
been focused on the industrial base issue for many of the 
manned ground vehicles, as well as many of the other systems, 
so to give you a full answer as to the impact on the industrial 
base, I'd like to get back to you for the record, if I could, 
Mr. Chairman.
    [The information follows:]

    The contractor for the Stryker Family of Vehicles, General 
Dynamics Land Systems (GDLS), has stated that a yearly 
production of 240 Stryker vehicles is the minimum sustainment 
rate to maintain the production facilities at Anniston Army 
Depot, Alabama, and London, Ontario (Canada). At the time of 
the hearing, the projected fiscal year 2009 production was 82 
Stryker vehicles. To mitigate the risk of not maintaining the 
minimum sustainment rate (MSR) in fiscal year 2009, the Army 
laid the groundwork for adjusting the fiscal year 2008 Stryker 
delivery schedule over a longer period of time to maintain the 
MSR while allowing the Army time to complete the Quadrennial 
Defense Review that will assess force structure and force mix. 
Subsequently, Congress has increased the Stryker program's 
fiscal year 2009 Overseas Contingency Operations (OCO) funding 
by $200 million in addition to the original $112 million 
request from the fiscal year 2009 OCO. An additional $238 
million became available as a result of vehicle contract 
definitization. Stryker vehicle procurement in fiscal year 2009 
is now projected at 353 Stryker vehicles (271 Strykers above 
the original 82 projected).

    Chairman Inouye. And do you have plans to continue getting 
something equivalent to the Stryker, if that base runs out?
    Secretary Geren. We expect to have the Strykers in our--as 
part of the inventory of our Army many years into the future. 
I've seen nothing that would project that we would be phasing 
them out.
    We do have plans, we've got a partnership with the marines 
to come up with another joint vehicle. We're also looking at--
as we develop the new manned ground vehicle, after we made 
the--after the Secretary made the decision to start the future 
combat system, manned ground vehicle system. So, we are looking 
at all of our--the future of all our vehicles, going forward--
looking at them as they relate to each other, but I know the 
Stryker is certainly an important part of our future.
    Chairman Inouye. Do we have any plans to acquire Stryker 
ambulances?
    Secretary Geren. At this point, our requirement for Stryker 
ambulances has been addressed. I know it's an issue that has 
been raised, and we're going to study it further, the House 
Appropriations Subcommittee on Defense has put additional 
ambulances, MEVs, in their appropriations bill, and we're going 
back and looking at our requirements in that regard. At the 
present time, we believed that the requirements that we had had 
been met with our budget, but that issue has been raised with 
Chairman Murtha's subcommittee, and we're going back and 
revisiting that issue.
    Chairman Inouye. Thank you.
    May I recognize the vice chairman?
    Senator Cochran. Mr. Chairman, thank you.

                           HELICOPTER PILOTS

    One of the priorities that has been announced by the 
Secretary of Defense for the Army would be to increase the 
number of helicopter units that are deployable and can be 
deployed to the theater where they're needed.
    A recent article stated that there was a shortage of 
pilots--up to 300 personnel--to meet the needs for Army 
helicopter crews.
    Mr. Secretary, we understand that there has been a new 
initiative begun, to recruit and train more helicopter 
personnel. Could you give us a status report on how that is 
going, and what your outlook is?
    Secretary Geren. Well, this budget includes an additional 
$500 million over the original proposed budget for 2010 to 
recruit and train helicopter pilots. Secretary Gates recently 
went to Fort Rucker and met with the leadership down there, and 
has tasked the Army to look at the infrastructure, look at our 
capabilities to support the training requirements.
    We have helicopters in the inventory that are not being 
used to the maximum extent, and this additional $500 million 
will allow us to bring additional trained pilots and crew into 
the Army, and allow us to better utilize those existing assets. 
But we are looking at what the future requires for development 
of that capability down at Fort Rucker, and are putting 
together a proposal to enhance the infrastructure and the 
resources down there.
    Senator Cochran. How many total personnel will be needed to 
meet the shortfall of helicopter personnel? If we provide the 
$500 million, as requested, when do you expect you'd be able to 
have the personnel trained and assigned to deployable units?
    Secretary Geren. I don't have the insight on--the Chief, if 
you could get--I'd like to get back to the record on that. I 
don't have the answer with me, but I'll certainly let you know. 
We're working to identify the resources that we'll need, the 
infrastructure that we'll need, and lay out a game plan for 
applying those funds.
    [The information follows:]

                          Helicopter Training

    Currently, the Army trains an annual student load of 1,200 
with 442 instructor personnel (includes 228 instructor pilots). 
We will increase student output in a phased approach over 2 to 
4 years. In fiscal years 2010 and fiscal year 2011, the annual 
student load will increase to 1,375 with an increase of the 
instructor staff to 568 (includes 312 instructor pilots). Army 
will reach its training requirement of 1,498 between fiscal 
year 2012-14. Increasing from 1,375 to 1,498 is dependent on 
the delivery of additional aviation motion simulators. New 
simulators that are needed are three TH-67 Instrument Flight 
Trainers, one CH-47D Operator Flight Trainer, one Longbow Crew 
Trainer, and to convert three UH60A/L Instrument Flight 
Trainers to Operator Flight Trainers. Delivery and conversions 
of the above simulators are projected in fiscal year 2011-14. A 
total of 624 instructors (includes 334 instructor pilots) will 
be required to support the 1,498 sustained training requirement 
for fiscal year 2014 and beyond. Finally, the effect of 
increased trained pilot output will be evident immediately in 
fiscal year 2010, when deploying units in all three Army 
Components will start receiving a greater number of initial 
rotary wing trained pilots. The number of trained pilots will 
increase by 12.7 percent (1,375) in fiscal year 2010 and will 
increase by 20 percent between fiscal year 2012 and 14 (1,498) 
over the current fiscal year 2009 (1,200) output.

                             FIRE SCOUT UAS

    Senator Cochran. Another program--deployment program and 
procurement--involves the unmanned aerial systems (UAS), a 
tactical, vertical takeoff capability, the Fire Scout unmanned 
aerial system is the description given of the unit to be built. 
How soon do you think an operational Fire Scout--will be able 
to be delivered to the Army for evaluation?
    General Casey. Senator, that Fire Scout is currently part 
of our--the spinout program of the future combat system--and it 
is moving forward in its development. I do not recall when the 
first unit will be delivered to us for testing, but I would 
say, it's in the next 3 to 4 years.
    [The information follows:]

    Class IV Unmanned Aerial System, XM-157 (Fire Scout) will 
begin testing on April 29, 2011 under the current System 
Development and Demonstration program schedule.

                           ARMY END STRENGTH

    Senator Cochran. General, I understand the Army is over the 
end strength by 1,500 personnel. Do you think the goal can be 
attained by the end of the fiscal year? Or, what is the outlook 
for dealing with that?
    General Casey. In this town, there's always good news and 
bad news, isn't it, Senator? The good news is, we've met our 
end strength targets early, the bad news is we have to pay for 
it for the rest of this year.
    But I do believe, to answer your question, that we will be 
able to get down and meet our end strength targets at the end 
of this year.
    Senator Cochran. That's good. Well, we wish you well, and 
we want to be sure that the bill that we recommend provides the 
funds that are needed to meet those goals.
    Chairman Inouye. Thank you very much.
    Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman.
    And welcome, Secretary Geren, General Casey. Thank you for 
being here today. Special thanks to Secretary Geren for your 
steadfast service on behalf of the Army. You've been a great 
champion for our Nation's most vital asset--our assets, our 
troops and their families, and a very capable Secretary. I 
particularly applaud your talking about fully resourcing the 
Guard, which is where we've made great progress--and it's been 
needed in the last few years.
    The electric vehicles that you're talking about, we will be 
making some light-duty electric trucks and vans in Missouri 
that we hope will be competing for some of those--for some of 
that opportunity.

                         MANNED GROUND VEHICLES

    General Casey, we look forward to working with you, and 
thank you for leading the Army. You referenced the future 
combat systems (FCS), of course, we all know it took a big hit, 
the manned ground vehicles. And what is the way forward the 
Army plans to do for bringing into the FCS system manned ground 
vehicles?
    General Casey. Thank you, Senator. And for giving me the 
opportunity to comment on that.
    First of all, it's only the manned ground vehicle element 
of the FCS program that will be stopped. All of the other 
elements of it--the network and the spinouts--are not only 
going to go forward, but they will be fielded to all 73 brigade 
combat teams.
    What we plan to do--there's a meeting going on this week--
it's called the System of Systems Design Review. And when that 
is over we, with the Department of Defense, will issue an 
acquisition decision memorandum that will halt the future 
combat systems program as we know it today. And we will then 
work with the contractor to split out the manned ground vehicle 
from the other systems so that the--and attempt to do that in a 
way that does not slow the development and fielding of the 
spinout.
    We have already begun and given direction to our training 
and doctrine command to build a development document for a new 
ground combat vehicle. And as we went through the discussions 
on this program with the Secretary of Defense, I could not 
convince him that we had sufficiently integrated the lessons 
from the current fight----
    Senator Bond. That would be incorporating the v-shape to 
the MRAP, as well as the IEP protection on the sides? Is that--
--
    General Casey. Exactly, those kinds of systems.
    And the good thing is, what we've gotten from the future 
combat system program, is we know the state of technology for 
those type of protective systems. I mean, we're at the limits 
of it, right now. And so, we will work to include both lessons 
from the current fight, and what we've learned from technology, 
and build a better vehicle. And build a better vehicle with the 
support of the Secretary and the Department of Defense, which I 
think will significantly help us move this forward.
    We--our goal is to come forward after Labor Day--with a new 
concept, design for the new manned ground vehicle, so that we 
can move forward, and our attempt will be to get a new vehicle 
in 5 to 7 years, and so we don't stretch this process out, any 
longer than it is.
    Secretary Geren. Let me add one thing, if I might, Senator.
    Senator Bond. Sure.
    Secretary Geren. Just so there's no misunderstanding on 
this one. The Secretary made the decision to terminate the 
manned ground vehicle, he included within that the non-line of 
sight cannon. It's actually a separate program under the 
authorization bill, but there's been some question about 
whether or not that was included in the Secretary's decision. 
He's made it clear that it covers the manned ground vehicles, 
and the non-line of sight cannon. So, just for the record, I 
wanted to----

                    ARMY NATIONAL GUARD END STRENGTH

    Senator Bond. Mr. Secretary, turning to the Army National 
Guard, I'm concerned about some of the personnel readiness. The 
Guard has over 73,000 troops activated in support of OIF and 
OEF, and they had over 300,000 call-ups since 9/11.
    And there's no question they're doing a tremendous job, 
whether it's fighting insurgency, assisting local Afghanis in 
agriculture development, but as the Army expands to 547 active 
duty, or whatever the number will be--I'm concerned that the 
Guard force will be stretched thin. The Guard has stated that 
the current operational environment requires a 371,000 soldier 
end strength. Does the Army have a--Guard have enough troops to 
fulfill its mission, both at home and abroad? With an end 
strength of the 358,000 outlined in the current budget?
    Secretary Geren. What the Secretary of Defense has directed 
us, the current end strength holds for active Guard and Reserve 
are set for this year, but he has left the door open to 
reconsider that issue, as we get into the future, if 
circumstances require additional end strength.
    But, with the Guard, as the Guard has transformed from a 
strategic Reserve to an operational force, many of the changes 
that they have underway are allowing them to better utilize 
their--the resources and the personnel.
    The Guard is going toward the R-4 Gen model, with the goal 
of 1 year deployed, 4 years at home. As you know, modularity, 
as well, with this additional equipping--we're doing a better 
job in the, frankly, with--much of this came from congressional 
leadership on the medical and dental readiness, so we've got a 
much higher percent today--almost double the medical-dental 
readiness that we had just 4 years ago.
    So, the transformation that the Guard is going through, 
with extraordinary leadership that's coming out of these Guard 
officers and NCOs that have had the experience of these last 7 
years, is they're transforming building a new Guard.
    Is the end strength number exactly right? It is set for 
this year, and they're having to reduce the numbers to get to 
that end strength total by the end of the year--I'm confident 
that they will. But I--for the time being, we're set at that 
end strength. We're working to make sure that the personnel in 
the Guard is assigned to the right MOSs, has the proper 
training, and is properly equipped and is ready, from a medical 
standpoint.
    So, I think we're where we need to be for the moment, and 
as the situation changes over the coming years, we'll see what 
the demand signal is, and have a better sense of whether that's 
the right number, long term.

                     ARMY NATIONAL GUARD EQUIPPING

    Senator Bond. Mr. Secretary, I'll have several other 
questions for the record, but about--on the equipment issues, 
as you indicated, you've made great progress in the way you 
track equipment procurement and distribution. The current 
tracking procedures are very labor-intensive, but if the Army 
can institutionalize and automate them, the Army National Guard 
should have the full visibility of resources intended for it by 
Congress. But how would you suggest the Army increase the 
transparency in the allocation of equipment to the Army 
National Guard, in light of the emerging threats that require a 
host of contingencies, both at home and abroad?
    Secretary Geren. One of the most important initiatives from 
the Ponarous Commission, we're working with OSD on it, OSD is 
working across all of the services on this issue, coming up 
with a system and approach that will allow us to have the kind 
of transparency that we'll be able to track the procurement and 
follow the equipment to the Guard unit, and keep track of it 
there.
    It's--as we've learned, as we've dug into it over the last 
7 or 8 months, and it's easier said than done, but we're 
building systems to enable us to do that. It's partly a 
technical challenge, but partly just a commitment to get it 
done. It's an area that I think it really had suffered from 
some neglect over the years. There was not a commitment to 
ensure that we could track it.
    Dr. Gates has made it a priority for all of the services, 
OSD really has the lead on it, but we're working with them to 
ensure that we accomplish that. It's a very high priority for 
us.
    Senator Bond. Thank you very much, Mr. Secretary, General.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.

                          STRESS ON THE FORCE

    Gentlemen, I'd like to submit my questions for the record, 
but I want one other question, Mr. Secretary, General.
    In recent years, divorce and suicide rates have sharply 
increased, and the day before yesterday, five men were killed 
by a stressed out patient, I believe, stressed. This was at a 
stress clinic. Do you believe that the initiatives that we are 
taking to address these problems is sufficient, sir?
    Secretary Geren. Mr. Chairman, I think the initiatives that 
we have underway are steps in the right direction. But this is 
a very stressed force, and as General Casey noted, our families 
are perhaps the most stressed component of our all-volunteer 
force.
    The investments that we're making are going to help better 
support families. Long term, I think the most important thing 
we can do is increase the dwell time, move it beyond the--
currently 1 to--about 1.3 that it is today, and get to the R-4 
Gen model of 1 year deployed to 2 years at home--ultimate goal, 
3 years at home. I don't think there's any substitute for 
giving these soldiers and these families time together.
    These investments we're making, we believe, will better 
support the families, but there's no substitute for the 
families being together--the family unit being together, and 
being able to support each other.
    So, long term, the most important initiative is to get the 
demand in line with our ability to provide forces, and ensure 
that our soldiers have the time to be home, be with their 
families, regenerate, reconnect with their families.
    You mentioned this, the tragedy of suicide. As we attempt 
to better understand suicides, we see in these suicides that we 
can determine the cause, it's the same issues that cause people 
to commit suicide on the outside.
    Mostly, at the top of the list, it's problems with 
relationships--failed relationships--divorce, some type of 
failure of a very significant relationship, either with a 
husband and a wife, or a parent and a child.
    And when you have the kind of separation that our soldiers 
are experiencing from their families, some soldiers on their 
third, fourth, and fifth deployment, it's obvious that that's 
going to put a relationship under strain. And in some cases, 
push a family to the breaking point.
    So, we are investing--the Chief and I spend a lot of time 
listening to spouses, and talking to children, figuring out 
what we can do to help them. But long term, ultimately, there's 
no substitute for soldiers having time with their families. And 
the most important initiative in relieving the stress on this 
force is going to be get on this R-4 Gen model, and have the 
soldiers be able to spend more time at home.
    Chairman Inouye. General.
    General Casey. Could I add to that, Mr. Chairman? Because 
you asked, are we doing enough.

                 COMPREHENSIVE SOLDIER FITNESS PROGRAM

    We are putting the finishing touches on a program called 
the Comprehensive Soldier Fitness Program, and I expect to 
initiate it this summer. And the intent of that program is to 
raise the attention that we give to mental fitness, to the same 
level that we give to physical fitness. And to give all 
soldiers the skills they need to be resilient, and to succeed 
in combat.
    Now, a lot of people think that everybody that goes to 
combat gets post-traumatic stress, and you know that's not 
true. In fact, the vast majority of the people that go to 
combat have a growth experience, because they're exposed to 
something very, very difficult, and they succeed.
    And so we're trying to give the skills to all soldiers, so 
that more people have a growth experience when they go.
    We, actually, this week have our first group of 
noncommissioned officers going to the University of 
Pennsylvania to become master resilience trainers, to get the 
skills they need to go back to their unit to help them develop 
effective programs.
    Now, we're modeling that after a program we have for master 
fitness trainers--we have guys that can teach you how to do 
good pushups. This is going to be the same type of thing for 
mental fitness.
    We're also developing a self-diagnostic test that can be 
taken--and will be taken--at various times during a soldier's 
career, and results will be reported to them. And it will give 
them an assessment of where they are in several areas, and then 
we'll connect them to several self-help modules, so that they 
can get the personal assistance there, in building their 
resilience.
    And I look to roll both of those out here, probably in the 
fall. But we had to get beyond just being reactive. And so this 
program is designed to give our soldiers the skills that they 
need to enhance their performance across the board.
    Chairman Inouye. Thank you very much.
    Senator Leahy.
    Senator Leahy. Thank you, both.
    General Casey, and Secretary Geren, so good to see you 
both. I know you both know the 86th Mountain Brigade, that's 
upward of 1,800 very proud citizen soldiers from the Vermont 
Army National Guard are going to begin a deployment, either end 
of this year or early next year, to Afghanistan. They're going 
to make up the bulk of Task Force Phoenix, to carry out the 
training of Afghan troops, and I've been glad to work with both 
of your offices to make sure the National Guard, and also the 
Army National Guard, to make sure they, the brigade has the 
equipment it needs, as well as the vehicle and body armor.

               MINE-RESISTANT, AMBUSH PROTECTED VEHICLES

    What I have been concerned about are the increased use of 
roadside bombs. I mean, not just--obviously not just for the 
Vermonters--but for all of our service people that are over 
there. The MRAP, which is the best protection against that 
has--requires paved roads, is fairly heavy--you know better 
than I--it doesn't work well in undeveloped Afghanistan.
    I understand the overseas contingency operations, a portion 
of the budget includes a request pending for the so-called MRAP 
all-terrain vehicle (ATV). I talked with Secretary Gates about 
this, when he was here before this subcommittee. I sent him a 
personal note about it. Will that remain a priority? I would 
like very much to see that, get it into operation, I know we 
have testing, and so on, but can I just kind of raise that up 
into the level of you two gentlemen?
    Secretary Geren. Very high priority--the same type of 
priority emphasis that led to the very rapid development and 
fielding of the original MRAPs, once the decision was made to 
go forward--that same type of commitment is behind bringing 
the--this MRAP ATV, or some are calling it ``MRAP Light,'' but 
a lighter version that would be more suitable for the Afghani 
terrain. A top priority for the Department, I can assure you.
    Senator Leahy. General Casey.
    General Casey. I was just going to say, Senator, I was 
there about 10 days ago, and heard, basically, the same thing 
that you said about--that there are off-road challenges with 
some of the larger MRAPs. But, what the soldiers do, is when 
they go on patrol, they figure out where they're going, and 
then they tailor the mix of vehicles that they take with them 
for that mission, and they vary the mix of up-armored RVs and 
MRAPs, depending on where they're going. And so they're quite 
agile at doing that. But as the Secretary said, this lighter 
MRAP is, indeed, a priority, and we will continue to work that.
    I will also tell you that we are working to integrate the 
MRAP into the design of all of our units. And, you know, 
those--the MRAPs have been procured by the supplemental budgets 
for the forces in the field. But we, I'm sure, like you believe 
that the improvised explosive device is going to be part of any 
battlefield that we deal with in our lifetime. And so those 
need to become an integral part of our force.
    Senator Leahy. And I would add, again, Secretary and 
General, that I don't raise this just out of a parochial 
concern for the 1,800 from Vermont, but for obviously, for 
everybody who is there. And for the flexibility that you might 
have in being able to train Afghans take over something.
    And I realize, also, that as you say about planning where 
you're going, but of course we also have times when the 
deployment is on very, very short notice--there's been an 
ambush, there's been other things that you see probably too 
often in the reports from there.

                    ARMY NATIONAL GUARD END STRENGTH

    And I also noticed, Mr. Secretary, the Army Guard has 
planned to get to 100 percent readiness, fully manned units, no 
more cross-leveling. When it deploys, it would not have to raid 
other units for people. To get that plan in place--which I 
think is a good plan--you have to ensure every unit in the 
Guard's force structure has all of the people it needs, the end 
strength of the National Guard to have to get to 371,000, I'm 
told, and a special holding account for those awaiting for 
training.
    I understand the Army's approved the holding account, but 
not the formal increase in the size of the force. Am I correct 
on that? Is that just being--is that just a monetary issue--or 
will we get to that?
    General Casey. Senator, we're working with them to reduce 
their training backlog of new recruits, because the challenge 
the Guard has is they recruit for a position, and until that 
soldier has been through basic training and advanced training, 
they're not qualified in their skills, so the unit cannot count 
them as a ready soldier, and we're working with them to reduce 
the backlog.
    We have not increased the end strength beyond the 5--
358,000 that was their target for fiscal year 2011.
    Senator Leahy. Will it be increased?
    General Casey. I do not--I don't see it. We're going to 
continue to work closely with the Guard on this, Senator, but I 
do not see an end strength increase for the Guard in the near 
future.
    Senator Leahy. I'm not quite sure how I see you doing 
this--how you get away from no more cross-leveling, and the 
rating.
    General Casey. We spoke--the Secretary and I both spoke in 
our opening statements about putting the Army on a rotational 
model--it's not just the active Army. It's also the Guard and 
Reserve. And our goal by 2011, is to have the Guard and Reserve 
on a 1 year out, 4 year back model.
    And what happens is, their readiness--both personnel and 
equipment--improves as they get closer to deployment. And just 
as--this is the same model that we will use for the active 
force. And that is the method that we are using to decrease 
cross-leveling.
    We're never going to get completely away from cross-
leveling. But it's this rotational model that gives us much 
better flexibility to build capability.
    So, in the first year, availability, they have every piece 
of equipment and all that the active force has, and they're 
manned for the mission. In the second year, they're manned at a 
little slightly lower level for their training, on the third 
year, slightly lower than that.
    Senator Leahy. And I'll close with this, on having the 
equipment, Senator Bond and I, we're co-chairs of the Guard 
Caucus, which both Members--both parties--belong to, here.

                               EQUIPPING

    We've written to you on the question of more transparency 
of where equipment goes--we appropriate the money for it, and 
we kind of lose sight as it comes off the assembly line, where 
it goes. I would just kind of give you a heads up that you're 
going to, kind of, follow-up question on that, because I really 
would like to see more transparency--which is actually to your 
advantage. Because if you have the transparency, you also have 
the ability to have some flexibility.
    If there's a concern here that it's not being done the way 
we want it, you're going to have these scriptures written into 
the appropriations law, which actually doesn't help you, and 
ultimately it doesn't help us.
    Secretary Geren. No, we're working--it's one of the most 
significant initiatives under the Punaro Commission, this 
transparency, and something we're working with OSD on, for 
the--all of the services Reserve component--this transparency 
has been a struggle for us. We're working to put together a 
system so that we will be able to track that equipment. Dr. 
Gates has made it a high priority, we certainly, in the Army, 
embrace it. It's a very high priority, and we'll--and are 
working hard to develop the processes and procedures to enable 
us to do that.
    And just the fact that it's become a very high priority for 
the Department--Congress, you all have made your intentions 
well-known in that regard. It may have taken us a little while 
to get the message, but we've gotten it, and we're working it 
very hard. We understand the importance of it to the Reserve 
component, we understand the importance of it for us as we try 
to manage all of our forces.
    I'll mention one other initiative that is significant as 
far as reducing the amount of cross-leveling. For the Guard 
units that are deploying next summer, they already have their 
orders--I mean, summer 2010, not summer 2009. We are now giving 
notice of mobilization 2 years out, and actually orders 1 year 
out. So, this allows every Guard unit the opportunity to manage 
their force, and determine who's going to stay, and start 
filling the holes, 1 year plus out, and much better able to 
manage their force.
    Senator Leahy. Thank you.
    Chairman Inouye. Thank you.
    Senator Cochran.

                     ARMY HELICOPTER MODERNIZATION

    Senator Cochran. Mr. Chairman, I have just one other 
question--there have been two efforts made to modernize the 
armed helicopter capability for the Army, and there have been 
problems in both instances. I wonder whether consideration can 
now be given to modifying an existing platform to provide these 
capabilities? We've suggested in a letter to the Secretary of 
Defense that be considered. What is the status of that 
situation, and is there an interest in moving forward to select 
some alternative that's workable and affordable?
    Secretary Geren. There is, Senator. In fact, after we went 
through the--worked through what happened with the armed 
reconnaissance helicopter, after the Nunn-McCurdy breach, and 
the decision to terminate the program, we went and studied what 
the--we felt our options were, and concluded that our best step 
would be to do a full analysis of all alternatives. And we're 
going to begin this summer, we're going to look at all options, 
including what's available in modifying commercial, off-the-
shelf platforms.
    So, we've got the aperture wide open--it's an analysis of 
all of the alternatives, and then we're going to move ahead, 
and produce the helicopter that serves the needs of our Army, 
but we're starting over, really, with a blank slate and looking 
at all of the options that are out there.
    Chairman Inouye. General Casey, Secretary, I thank you very 
much on behalf of the subcommittee. We thank you for your 
testimony and your service to our Nation.

                     ADDITIONAL COMMITTEE QUESTIONS

    And we'd like to thank the three gallant men sitting before 
us, here. Thank you for your service, Sergeants.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Chairman Daniel K. Inouye

                       FUTURE COMBAT SYSTEM (FCS)

    Question. Secretary Geren, the fiscal year 2010 defense budget 
drastically changes the Future Combat System, which has long been 
touted as the Army's modernization program. I believe this is the 
fourth major restructure to the FCS program since its inception. We 
have spent almost $18 billion on FCS since 2003, including at least 
$4.2 billion on efforts to develop a new class of manned ground 
vehicles that are now being terminated, and while we have started 
fielding some spin out technologies, they are not delivering the 
capabilities envisioned by the original FCS.
    Tell us Mr. Secretary, what lessons have you learned from the FCS 
program history to ensure the Army is developing a program that 
addresses the needs of the warfighter?
    Answer. Army challenges to modernization remain consistent in a 
complex operational environment against adaptive enemies. The Army is 
adapting using the hard won lessons learned over 7 years of war, which 
highlight the demand for greater versatility, lethality, and 
interoperability across the entire Army.
    The Army is transitioning elements of the Future Combat Systems 
(FCS) (such as sensors, unmanned ground and aerial vehicles, and 
network development) to the new Brigade Combat Team (BCT) Modernization 
program in compliance with the anticipated Acquisition Decision 
Memorandum from the Milestone Decision Authority. This proposed 
transition completes a shift in the Army's modernization strategy--
moving from equipping only 15 BCTs with all of the FCS equipment to 
holistic modernizing of all Army BCTs.
    The Training and Doctrine Command established a task force to work 
over the course of the summer to develop an affordable, incremental BCT 
Modernization plan. They will reexamine force design, analyze and 
determine the appropriate mix of systems to field in capability 
packages, develop incremental network capability packages to support 
them, and refine requirements for a new ground combat vehicle. This 
work will be informed by views and perspectives from a broad spectrum 
of thought including individuals from think tanks, retired officers, 
currently serving officers and civilian leaders, senior non-
commissioned officers, and program managers.
    We have learned much from the FCS program in the past decade and 
appreciate the commitment of industry to provide our Soldiers the best 
available equipment. We will work closely with the Office of the 
Secretary of Defense, Congress and FCS contractors/subcontractors in 
the days ahead to capture what we have learned, to implement program 
change decisions, to maintain the momentum of the spin-outs, and to 
move forward expeditiously with a ground combat vehicle.

                          JOINT CARGO AIRCRAFT

    Question. General Casey, the budget before the Congress proposes to 
restructure the Joint Cargo Aircraft program by fielding the aircraft 
only to the Air Force, and reducing the total program from 78 airplanes 
to 38. One of the major reasons for the Army's participation in the 
Joint Cargo Aircraft has been the need to provide airlift for the 
``last tactical mile'' to support soldiers serving on the front lines.
    Will the proposals to transfer the program to the Air Force or to 
reduce the number of aircraft have an impact on supporting our forward-
deployed troops?
    Answer. It is Air Force's intent that the transfer of JCA have no 
negative impact on the forward deployed Soldier. The Army and Air Force 
have partnered since July 2005 to shape complementary capability 
requirements for the Joint Cargo Aircraft (JCA) program. The Army 
requires the JCA to focus on responsive, direct support transportation 
of Time-Sensitive Mission-Critical (TS/MC) resupply and key personnel 
transport at the tactical level (``the last tactical mile''). The Army 
will continue to provide time-sensitive, mission-critical, direct 
support with a combination of contract air, Sherpas, and CH-47s until 
the USAF begins performing that mission in the summer of fiscal year 
2010. To mitigate the reduced number of airframes procured, the Air 
Force is studying the feasibility of using other cargo aircraft to 
supplement the C-27J. A valid requirement remains with the Army for the 
replacement of the C-23B/B+ Sherpa Cargo Airplane as operational and 
sustainment costs are exceedingly high. The Army, Air Force, Joint 
Staff, and Office of the Secretary of Defense are working closely 
together to develop operational procedures and measures to meet the 
Army's mission needs and to determine the final procurement quantity of 
Joint Cargo Aircraft. This analysis will include the potential use of 
C-130s to meet a portion of the Army's requirement. If a determination 
is made to procure more JCAs, there is still time to do that.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

          INTEGRATED VEHICLE HEALTH MANAGEMENT SYSTEM (IVHMS)

    Question. General Casey, I understand that the Integrated Vehicle 
Health Management System (IVHMS) is providing significant maintenance, 
safety, and operational benefits on the UH-60 fleet.
    Could you highlight some of those benefits and cost savings?
    Answer. The Integrated Vehicle Health Management System (IVHMS) 
provides early detection of impending aircraft component failures and 
eliminates guesswork when performing maintenance actions. The IVHMS 
also provides the ability to automate preventative and recurring 
maintenance checks. Through the automation of regular maintenance 
checks such as the 120-hour vibration check, the Army will potentially 
realize a savings in scheduled maintenance man-hours. The IVHMS also 
allows insight into the health of the aircraft, which is changing the 
way aviation maintenance operations are planned and conducted. For 
example during a recent deployment to Iraq, 22 IVHMS equipped UH-60 
aircraft indicated a high engine temperature and/or an excessive speed 
condition. These conditions normally require engine replacement for 
analysis. Due to the IVHMS health monitoring abilities, 21 of the 22 
UH-60 engine replacements were not required, avoiding $9.7 million in 
unscheduled maintenance cost. It is anticipated that IVHMS, which is an 
enabler of Condition Based Maintenance, will allow the Army to avoid 
unnecessary component removal in the future due to data collected 
through health monitoring systems.
    Question. Further, can you provide an update on the status of fully 
outfitting the UH-60 fleet with the IVHMS?
    Answer. As of June 8, 2009, 542 Army H-60 aircraft are equipped 
with Integrated Vehicle Health and Usage Management System (IVHMS) in 
the field (including 98 UH-60Ms that are delivered from the factory 
with IVHMS installed). In addition, 344 IVHMS kits were funded and are 
on contract for installation on the legacy fleet of H-60A/Ls, for an 
IVHMS equipped total of 886 (542+344). Therefore, 46 percent of the 
1,931 H-60 objective fleet either has IVHMS installed or is funded to 
be installed.
    Question. Is current funding adequate to outfit all of the UH-60 
aircraft currently scheduled to deploy to Iraq and Afghanistan so they 
continue to realize the benefits of IVHMS?
    If not, how much is needed by the Army to do so?
    Answer. For the fiscal year 2010-11 rotation being prepared 
currently, only 10 aircraft will not be equipped with IVHMS kits. The 
cost to procure and install 10 additional kits is estimated to be 
approximately $2.9 million, subject to operational availability of 
individual aircraft as they near their deployment date.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                          JOINT CARGO AIRCRAFT

    Question. General Casey, the budget proposes transferring Joint 
Cargo Aircraft purchased by the Army and the mission associated with 
those aircraft to the Air Force. In the past, the Army has maintained 
that they must maintain a role in this program to fulfill a service-
unique requirement to provide time sensitive, mission critical supplies 
such food, water, repair parts and ammunition directly to Army units? 
Do you support transferring this mission to the Air Force and do you 
see any change in requirements for the Department?
    Answer. I support transferring this mission to the Air Force. The 
Air Force can and will support the end-to-end distribution of time 
sensitive, mission critical (TS/MC) equipment, personnel, and supplies 
to the forward deployed Army forces. There has been no change in this 
requirement. It is just a matter of which Service operates and 
maintains the aircraft to conduct the TS/MC mission. Currently, the 
Army and Air Force are determining the concepts of operations and 
employment and preparing the transfer of the Joint Cargo Aircraft (JCA) 
program from the Army to the Air Force.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond

                     INDIVIDUAL READY RESERVE FORCE

    Question. My final question is about the Individual Ready Reserve 
Force, or IRR. General Casey and Secretary Geren, I know you both 
advocate for the movement away from calling on our IRR forces if we can 
prevent it. However, the realities abroad and within our armed forces 
present serious challenges--namely that we are fighting with men and 
woman who, at one point or another, believed they had completed their 
service obligation to their country.
    Unfortunately, maintaining a robust IRR force is necessary to 
protect our country's interests. However, these call ups are designed 
for full-scale mobilization emergencies, not as manning solutions for 
today's multifaceted counter-insurgency. Grasping the complexities of 
today's battlefield is an exhaustive training process for our active 
duty ranks that takes months and even years.
    How do you tell a 23 year old who has been out of the service for 2 
years that he must re-learn the subtleties and nuances of the Afghan 
terrain and culture?
    Now imagine he's married with two kids, maintaining a full-time 
job, and has never been to Afghanistan?
    Answer. An IRR Soldier being called to active duty goes through a 
medical screening and participates in military occupational specialty 
refresher training, and in unit collective training. These measures 
reintegrate the Soldier into the force and prepare the Soldier for the 
upcoming deployment, just like any other Soldier who has been out of a 
theater of operations for any significant period of time. IRR Soldiers 
who have family care issues, medical issues, or other issues that would 
prevent them from being called to active duty in accordance with their 
orders, may request a delay or an exemption through the Army's Delay 
and Exemption Request Process. Historically, more than two-thirds of 
exemption requests and nearly nine-tenths of the delay requests have 
been approved.
    Question. Clearly, many former war fighters find difficulty in 
summoning the requisite will, training, and discipline to carry out the 
full spectrum operations occurring today in Iraq and Afghanistan 
because they have fundamentally moved on. Many times, our deployed IRR 
soldiers only know how to pursue a strategy that does not center on 
winning, but purely how to survive, not lose, and get back home to a 
normal life again, before it was interrupted.
    Are the odds of getting called up increasing among the IRR force?
    Answer. The odds of an IRR Soldier being called to active duty 
depend more on his or her military occupational specialty (MOS) than on 
the overall population of Soldiers in the IRR. Soldiers with low-
density/high-demand MOSs (e.g., Civil Affairs, Engineers, Signal Corps, 
and mechanics) have a higher probability of being mobilized than other 
IRR Soldiers.
    Question. Do you believe that filling units with IRR soldiers is an 
effective manning solution for operations characterized by full-
spectrum conflict and irregular warfare?
    Answer. IRR Soldiers began their Army careers in an active status, 
whether it was with the Regular Army or the Reserves. They are 
experienced and trained Soldiers who either elect to stay in the Army 
past their Military Service Obligation (MSO), or are in the IRR 
completing their MSO. IRR Soldiers are called to active duty to fill 
unit vacancies in units that have been notified of their pending 
mobilization. Once they are assigned to a unit, IRR Soldiers are 
integrated into the unit and participate in their collective training 
prior to their deployment in theater.
                                 ______
                                 
                Question Submitted by Senator Judd Gregg

 THIRD GENERATION EXTENDED COLD WEATHER CLOTHING SYSTEM (GEN III ECWCS)

    Question. I would like to commend the Army for its hard work and 
initiative in developing the Third Generation Extended Cold Weather 
Clothing System (GEN III ECWCS). I feel strongly that the system 
ensures the safety and health of our soldiers while bolstering mission 
readiness and combat capability. I understand that GEN III ECWCS has 
proven to be a combat advantage for our troops, but I remain concerned 
about the Army's present and future plans to fully field and fund the 
GEN III ECWCS.
    What is the Army's requirement for GEN III ECWCS, and in the 
absence of supplemental funding, how does the Army plan to fund the 
deployment of GEN III in future years?
    Answer. The Army requirement to provide its Soldiers effective 
protection from the environment without hindering their performance is 
documented in our Core Soldier System Capability Production Document 
(CPD). The Third Generation Extended Cold Weather Clothing System (GEN 
III ECWCS) supports this requirement as a product improvement over 
previously fielded Soldier items. At this time, one set of GEN III 
ECWCS is fielded per deploying Soldier as part of our Rapid Fielding 
Initiative issue process. The Army's future requirement for GEN III 
ECWCS is currently being staffed as part of an update to the Core 
Soldier System CPD, and will likely be one set per Soldier.
    Current GEN III ECWCS fielding is supported primarily with 
supplemental funding; however, there is limited sustainment funding for 
select layers as part of Army Clothing Bag and Central Issue Facility 
support. For future years the Army Staff is in the process of 
developing fielding and sustainment processes that will be integrated 
into the Equipping and Sustainment Program Objective Memorandum 
requests for fiscal years 2012 and beyond.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett

    DUGWAY PROVING GROUND--U.S. ARMY UNMANNED AERIAL VEHICLE TESTING

    Question. The Utah delegation was pleased to announce last week 
that Dugway Proving Ground in Utah's west desert has been chosen to 
integrate systems and conduct testing on the U.S. Army's Hunter, Shadow 
and Sky Warrior Unmanned Aerial Vehicles (UAVs).
    The Army's decision to establish the Rapid Integration and 
Acceptance Center at Dugway could bring as many as several hundred 
good-paying jobs to Utah within 2 years and provide a welcome economic 
boost to the state. The center's primary missions will be to 
consolidate all acceptance testing of the Shadow, Hunter and Sky 
Warrior UAVs and to help the Army streamline the introduction of new 
UAV technology to combat units.
    I consider the Utah Test and Training Range and Dugway Proving 
Grounds to be national assets and would welcome any plans for future 
expansion of the mission. It's clear in the budget materials that I 
have seen that the overall use of unmanned aerial systems (UAS) is 
increasing. In an unclassified setting could you tell me more about the 
U.S. Army's plans for expanding the use of UAS's and how we can support 
it?
    Answer. Much of the Army UAS work at Dugway Proving Ground (DPG) 
will be related to acceptance test procedure (ATP) flights for the 
Shadow, Hunter and Extended Range Multi-Purpose (ERMP) aircraft. During 
ATP flights, the government formally accepts aircraft delivered by the 
prime contractors. Up to this point, these ATP flights have taken place 
at three separate locations. To streamline the ATP as well as other 
airframe integration activities, Program Manager (PM) UAS consolidated 
his assets and established a Rapid Integration Acceptance Center (RIAC) 
which is currently being moved to DPG.
    Several other critical activities will take place at the RIAC. To 
better meet Warfighter needs, PM UAS will conduct rapid integration, 
flight assessment, and deployment of new UAS technologies from the RIAC 
into theater. At the RIAC, PM UAS will conduct rapid integration of new 
technologies to support not only Army priorities, but Marine Corps and 
Special Operations Command requirements (or other Service needs, as 
required). By consolidating all Army UAS aircraft and ancillary 
equipment at Dugway, we will have all the assets necessary in one place 
to accelerate and achieve true interoperability between aircraft, the 
Universal Ground Control Station (UGCS) and the One System Remote Video 
Terminal (OSRVT).
    The RIAC infrastructure will allow a great opportunity to include 
academic experimentation. Many universities are working various 
technologies to include payloads, sense and avoid technologies, etc. 
However, they are limited as far as platform availability to validate 
these technologies. Having this capability at the RIAC will allow 
academia to bring the best of breed technologies to fruition for 
potential follow-on efforts and will provide better enabling 
technologies to the Warfighter.
    The Army Reserve recently selected DPG to consolidate Reserve UAS 
units with PM UAS facilities. This will allow synergy for training, 
shared resources, etc. Additionally, the Utah National Guard (at a 
minimum), as well as other National Guard units across the United 
States, will be able to leverage the infrastructure being established 
for the RIAC, as well as the available airspace over DPG property.
    As noted earlier, having all the assets necessary in one place 
allows the PM to accelerate and achieve true interoperability between 
the various aircraft and systems, the UGCS and OSRVT. Additionally, if 
the Army is truly to achieve the capability to have a universal 
operator, it is critical to be able to validate the technology and 
procedures in one location flying more than one type aircraft from one 
UGCS.
    To truly establish a first-class facility, funds will be required 
to purchase hangars, office space and bonded storage. DPG has all the 
runway capability (near and long-term) and some temporary hangar 
capabilities for the near-term; however, with an influx of several 
systems and possibly more than 200 personnel, additional space is 
needed for office and hangar space over what DPG currently offers. The 
PM UAS staff is finalizing the facility requirements and expects to 
have a rough estimate of funds required in the next month.
    The timeline for arrival of Shadow, Hunter and Warrior on site is 
staggered. Shadow is already on site at DPG for some engineering 
flights, to include the re-wing effort and additional laser designator 
payload testing. Shadow ATP will be fully transitioned from Fort 
Huachuca by February 2010. Hunter will have its initial flight assets 
at DPG by late October, early November 2009, with additional test 
assets on site by February 2010. Warrior-A and Block-0 will also be on 
site around November 2009. The ERMP program will start arriving on site 
during 4th Quarter, fiscal year 2010 and is expected to be fully 
operational with its ATP process established by 1st Quarter, fiscal 
year 2011. Other RIAC efforts will be integrated into the schedule as 
they become available and approved/funded for integration and testing.
    Critical to the entire success of the RIAC effort, along with other 
associated activities for the Army noted above, is the availability of 
the restricted airspace above DPG land property for the Army to fly 
with impunity. Recently, there have been concerns noted by the 388th 
Range Squadron at Hill Air Force Base (AFB) that they want to retain 
control of scheduling of the restricted airspace over DPG. However, 
with the changing mission at DPG for aircraft testing, mostly unmanned, 
it is imperative that the Army (DPG specifically) retain that priority 
for use and scheduling over its airspace. Any additional airspace 
needed in the Utah Test and Training Range area would be coordinated 
per standard procedures already in place with Hill AFB, to include 
long-range data link testing and weapons firing during certain flight 
profiles.

                NATIONAL GUARD STATE PARTNERSHIP PROGRAM

    Question. I'm sure you are both familiar with the National Guard 
State Partnership Program. The Utah National Guard has been very 
pleased with their experience to date in partnering with Morocco and I 
am pleased to report that things are going well.
    I recently cosponsored S. 775, which would formalize the 
relationship at an institutional level if passed into law.
    What can you tell me about the Army's view of this program, its 
effectiveness and impact on military-to-military relationships around 
the globe?
    Answer. Senate Bill 775 would provide the National Guard with the 
clear, unambiguous authority needed to continue strengthening its State 
Partnership Program and, consequently, will ensure that the National 
Guard SPP continues its very effective contribution to our national 
security. While it does not call for any additional funds for the 
program, which operates with a modest budget of about $8 million in 
fiscal year 2009 (drawn from both the Air Force and Army), it would 
codify the authority for the National Guard to continue expending funds 
for international activities under the SPP program, in support of our 
national security strategy.
    The SPP plays a critical role in building capacities in strategic 
nations and regions throughout the world. SPP develops unique, 
sustainable, cooperative partnerships between individual U.S. States 
and Territories paired up with foreign partner countries. Today, SPP 
consists of 53 U.S. States and Territories partnered with 61 countries 
around the world.
    The SPP builds partner capacity by allowing Army and Air Guardsmen 
to share both civilian and military experiences at the individual and 
unit levels. The focus of SPP remains to develop military to civilian 
contacts and activities that promote defense and security-related 
cooperation in critical areas such as emergency management and disaster 
response, border and port security, leadership and NCO development, 
medical capacities, economic security, natural resource protection, 
peacekeeping operations, counter trafficking, counter proliferation and 
counter and anti-terrorism. Additionally, SPP encourages Guardsmen to 
facilitate civilian, state, and local government relationships 
strengthen and develop broad spectrum civil security cooperation 
between our nation and the SPP partner.
    The SPP supports military to military contacts and activities 
between the United States and those nations partnering with us in the 
SPP program. All SPP activities support the Combatant Commanders, as 
well as the individual mission plans of the U.S. Ambassadors.
    The SPP can be measured by the support Combatant Commanders and 
U.S. missions around the world continue to give to the SPP, and the 
growing demands for SPP expansion to include more countries. The 
ambiguous regulatory authorities currently in place inhibit mission 
flexibility and resourcing necessary for the program to achieve its 
full potential. S. 775 will ensure that SPP can continue building 
strong, lasting bilateral relationships and support to key nations 
whose stability will in turn promote regional and, ultimately, global 
security.

                             CAMP WILLIAMS

    Question. Camp Williams is one of the finest training sites in the 
country, offering a wide variety of training opportunities to soldiers. 
In addition to Utah Guard units, many regular Army, Army Reserve, 
Marine Corps and Air Force units utilize the facilities, both at Camp 
Williams and at the licensed facilities at Dugway Proving Ground. Camp 
Williams facilities are also used by the FBI, law enforcement agencies 
from across the state, and other state agencies for training and 
leadership conferences. It has also become a regular training area for 
many youth groups. To keep up with demand, the Camp is continually 
improving its facilities, both in the cantonment area and in its range 
areas.
    Despite the high value the area offers for national security and 
law enforcement training, one of the growing issues its leadership must 
face is that of the expanding local communities physically encroaching 
the fence line and seeking to place legal restrictions on training and 
operations there due to issues such as noise complaints, hiking 
requests and spreading wildfires. These seemingly small issues have the 
possibility of incrementally disabling its mission that supports our 
national security. Will you discuss what Army efforts have been made to 
address encroachment issues in general and any efforts specific to Camp 
Williams?
    Answer. Camp Williams and the National Guard Bureau (NGB) are 
responding to this issue through a variety of means. First, the Utah 
Army National Guard (UTARNG) applied for participation in the Joint 
Land Use Study (JLUS) program of the DOD Office of Economic Adjustment. 
Camp Williams made it through the nomination process, and on May 7, 
2009, held a kick off meeting with a JLUS project manager from DOD.
    Second, UTARNG regularly participates in the planning commission 
meetings of all communities in their vicinity. This helps them partner 
with the communities, develop relationships and a presence, and express 
their issues and concerns. NGB provided UTARNG with information on and 
examples of local ordinances and legislation that could protect their 
training mission from encroachment.
    Third, we are developing an Army Compatible Use Buffer (ACUB) 
proposal. A group of installation and headquarters staff met with state 
and local government officials and potential partners to explain the 
ACUB program as a possible solution. There is considerable interest in 
the program from the local communities. The cost of property is 
extremely high adjacent to Camp Williams: a prior appraisal assessed an 
approximately 3,400-acre parcel at $39 million. A concern is that the 
ACUB proposal would depend upon significant partner contributions as 
the program is currently not funded. Camp Williams is currently working 
on aligning willing partners and developing their proposal.
    Finally, UTARNG is working with staff from the NGB to address 
unexploded ordnance on property along and beyond the northern boundary 
of the Camp Williams under the Military Munitions Response Program. As 
part of this effort, UTARNG will be conducting Public Safety Awareness 
training to educate the surrounding community about safety issues 
related to munitions releases that occurred in the past, beyond the 
facility boundaries. This effort should assist in raising community 
awareness of the Camp Williams' mission and the importance of 
maintaining a buffer around this valuable military facility.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The subcommittee will reconvene on 
Thursday, May 14, at 10:30 in the morning. At that time we'll 
have a closed hearing to receive testimony on classified 
information.
    And now, we'll stand in recess.
    [Whereupon, at 11:38 a.m., Tuesday, May 12, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
